<html>
<title> - THREAT CONVERGENCE ALONG THE BORDER: WILL DRUG TRAFFICKING TECHNIQUES PROVIDE SOME ANSWERS?</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]




 
 THREAT CONVERGENCE ALONG THE BORDER: WILL DRUG TRAFFICKING TECHNIQUES 
                         PROVIDE SOME ANSWERS?

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON CRIMINAL JUSTICE,
                    DRUG POLICY, AND HUMAN RESOURCES

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 14, 2005

                               __________

                           Serial No. 109-96

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                      http://www.house.gov/reform


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
24-890                      WASHINGTON : 2006
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                     COMMITTEE ON GOVERNMENT REFORM

                     TOM DAVIS, Virginia, Chairman
CHRISTOPHER SHAYS, Connecticut       HENRY A. WAXMAN, California
DAN BURTON, Indiana                  TOM LANTOS, California
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
JOHN L. MICA, Florida                PAUL E. KANJORSKI, Pennsylvania
GIL GUTKNECHT, Minnesota             CAROLYN B. MALONEY, New York
MARK E. SOUDER, Indiana              ELIJAH E. CUMMINGS, Maryland
STEVEN C. LaTOURETTE, Ohio           DENNIS J. KUCINICH, Ohio
TODD RUSSELL PLATTS, Pennsylvania    DANNY K. DAVIS, Illinois
CHRIS CANNON, Utah                   WM. LACY CLAY, Missouri
JOHN J. DUNCAN, Jr., Tennessee       DIANE E. WATSON, California
CANDICE S. MILLER, Michigan          STEPHEN F. LYNCH, Massachusetts
MICHAEL R. TURNER, Ohio              CHRIS VAN HOLLEN, Maryland
DARRELL E. ISSA, California          LINDA T. SANCHEZ, California
GINNY BROWN-WAITE, Florida           C.A. DUTCH RUPPERSBERGER, Maryland
JON C. PORTER, Nevada                BRIAN HIGGINS, New York
KENNY MARCHANT, Texas                ELEANOR HOLMES NORTON, District of 
LYNN A. WESTMORELAND, Georgia            Columbia
PATRICK T. McHENRY, North Carolina               ------
CHARLES W. DENT, Pennsylvania        BERNARD SANDERS, Vermont 
VIRGINIA FOXX, North Carolina            (Independent)
------ ------

                    Melissa Wojciak, Staff Director
       David Marin, Deputy Staff Director/Communications Director
               Rob Borden, Parliamentarian/Senior Counsel
                       Teresa Austin, Chief Clerk
          Phil Barnett, Minority Chief of Staff/Chief Counsel

   Subcommittee on Criminal Justice, Drug Policy, and Human Resources

                   MARK E. SOUDER, Indiana, Chairman
PATRICK T. McHenry, North Carolina   ELIJAH E. CUMMINGS, Maryland
DAN BURTON, Indiana                  BERNARD SANDERS, Vermont
JOHN L. MICA, Florida                DANNY K. DAVIS, Illinois
GIL GUTKNECHT, Minnesota             DIANE E. WATSON, California
STEVEN C. LaTOURETTE, Ohio           LINDA T. SANCHEZ, California
CHRIS CANNON, Utah                   C.A. DUTCH RUPPERSBERGER, Maryland
CANDICE S. MILLER, Michigan          MAJOR R. OWENS, New York
GINNY BROWN-WAITE, Florida           ELEANOR HOLMES NORTON, District of 
VIRGINIA FOXX, North Carolina            Columbia

                               Ex Officio

TOM DAVIS, Virginia                  HENRY A. WAXMAN, California
                     J. Marc Wheat, Staff Director
          Nicholas Coleman, Professional Staff Member/Counsel
                           Malia Holst, Clerk
          Richard Butcher, Minority Professional Staff Member


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on June 14, 2005....................................     1
Statement of:
    Passic, Gregory, Director, Office of Drug Interdiction, 
      Customs and Border Protection..............................    29
    Placido, Anthony, Assistant Administrator for Intelligence, 
      Drug Enforcement Agency....................................    14
    Torres, John P., Deputy Assistant Director, Office of 
      Investigations, Immigration and Customs Enforcement........    36
    Utley, Ralph, RADM, USCG Ret., Acting Director, Office of 
      Counternarcotics Enforcement, Department of Homeland 
      Security...................................................     6
Letters, statements, etc., submitted for the record by:
    Cummings, Hon. Elijah E., a Representative in Congress from 
      the State of Maryland, prepared statement of...............    57
    Passic, Gregory, Director, Office of Drug Interdiction, 
      Customs and Border Protection, prepared statement of.......    31
    Placido, Anthony, Assistant Administrator for Intelligence, 
      Drug Enforcement Agency, prepared statement of.............    16
    Souder, Hon. Mark E., a Representative in Congress from the 
      State of Indiana, prepared statement of....................     4
    Torres, John P., Deputy Assistant Director, Office of 
      Investigations, Immigration and Customs Enforcement, 
      prepared statement of......................................    38
    Utley, Ralph, RADM, USCG Ret., Acting Director, Office of 
      Counternarcotics Enforcement, Department of Homeland 
      Security, prepared statement of............................     9


 THREAT CONVERGENCE ALONG THE BORDER: WILL DRUG TRAFFICKING TECHNIQUES 
                         PROVIDE SOME ANSWERS?

                              ----------                              


                         TUESDAY, JUNE 14, 2005

                  House of Representatives,
Subcommittee on Criminal Justice, Drug Policy, and 
                                   Human Resources,
                            Committee on Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:02 p.m., in 
room 2203, Rayburn House Office Building, Hon. Mark E. Souder 
(chairman of the subcommittee) presiding.
    Present: Representatives Souder, Gutknecht, and Cummings.
    Staff present: Nicholas Coleman, professional staff member 
and counsel; David Thomasson and Pat DeQuattro, congressional 
fellows, Malia Holst, clerk; Tony Haywood, minority counsel; 
Richard Butcher, minority professional staff member; and Teresa 
Coufal, minority assistant clerk.
    Mr. Souder. The subcommittee will come to order. Good 
afternoon, and thank you all for coming. Today we will explore 
Federal law enforcement's ability to identify, interdict, and 
apprehend drug smuggling operations along our Nation's borders. 
This mission requires a comprehensive, unified, multiagency 
effort, with a clear plan that dismantles the organizations 
responsible, not just for smuggling drugs but also illegal 
aliens, terrorists, and weapons into this country. We have 
fallen short of this objective for many reasons but I would 
like to address five of them here.
    Reason No. 1 involves the organizational decision to split 
the investigative and inspection functions at the Customs and 
Border Protection [CBP], and Immigrations Customs Enforcement 
[ICE]. By splitting the two functions, the Department has 
limited their capacity to conduct enforcement operations in 
areas leading up to the border, at the border, and beyond the 
border. This unhealthy split has been exasperated by an extra 
layer of bureaucracy over ICE and CBP, namely the Directorate 
of Border and Transportation Security.
    Second, it seems that all Federal agencies engaged in drug 
enforcement have developed or are in the process of developing 
their own individual intelligence programs complete with intel 
centers that serve that agency's needs. While I support intel 
operations at these agencies, too many centers lead to 
duplication of effort and stovepiped computer systems that lack 
the ability to communicate with other existing systems. One 
example of this type of duplicative efforts can be found at 
Fort Bliss in El Paso, TX. The Border Patrol Field Intelligence 
Center [BORFIC], and the DEA-run El Paso Intelligence Center 
[EPIC], have taken up residence at the same military 
installation. BORFIC is responsible for providing daily reports 
to the Border Patrol headquarters and field managers throughout 
the United States. Additionally, they search for potential 
terrorist threats along the U.S.-Mexican border. EPIC, on the 
other hand, concentrates primarily on drug movement, 
immigration violations, to include all the United States and 
the Western Hemisphere where drug and alien movements are 
directed toward the United States. While both focus on similar 
targets, they have developed separate databases of violators 
rather than sharing the information and making it available to 
users from one central database.
    Third, we lack a strategic, comprehensive, layered 
interagency plan to address border security. The DHS Under 
Secretary for Border and Transportation Security [BTS] is 
currently evaluating the merits of a border strategy that will 
involve the opening of yet another operational intelligence 
center called the Border Interdiction Support Center [BISC]. 
The BISC concept would supposedly warehouse and disseminate for 
intelligence derived from the interagency efforts at 
interdicting people, weapons, and narcotics along the southwest 
border. But the agencies that would be involved in BISC, like 
DEA, ICE, and CBP, all seem to have a different idea of what 
the BISC would do.
    The perceived need to create the BISC underscores the 
Nation's lack of a coherent interagency plan to address border 
security. On May 12, 2005, the Government Reform Committee held 
a hearing to examine DHS management of border security. 
Commissioner Bonner informed the committee that CBP has a 
strategic Border Patrol plan but failed to disclose the details 
of a border strategy. The subcommittee has been told that a 
border plan has been submitted by CBP but is now held up at 
BTS. We need to do better.
    Fourth, DHS has failed to fund the Office of 
Counternarcotics Enforcement as Congress intended. Currently 
the funding level for 2006 remains the same as 2005; funds are 
controlled by the chief of staff, not the director; and the 
director continues to be employed by the Transportation 
Security Agency. The office is supposed to coordinate DHS drug 
interdiction efforts at the land borders, on the seas, and in 
the air. The law assigns specific responsibilities to the new 
director including oversight of DHS counterdrug activities and 
the submission of reports to Congress. Without sufficient funds 
and independence, however, the office simply cannot carry out 
these responsibilities.
    Finally, poor organizational structure and funding, lack of 
intelligence coordination, and a cohesive border strategy have 
not only hurt our ability to stop drug smuggling along the 
border, but also the smuggling of people, terrorists, and 
weapons. Our failure to identify and prosecute transportation 
groups that provide aliens with tools needed to illegally enter 
our country calls into question our ability to control our 
Nation's borders. It is my hope that Congress and the Federal 
law enforcement agencies will work to improve our ability to 
shut down the smuggling organizations involved in criminal 
enterprises along the border.
    Today we have a panel of very experienced witnesses to help 
answer these and other questions posed by the subcommittee. 
From the Office of Counternarcotics Enforcement we have the 
Director, Admiral Ralph Utley. From the Drug Enforcement 
Administration we have the Assistant Administrator for 
Intelligence, Mr. Anthony Placido. From Customs and Border 
Protection, we have the Director of the Office of Drug 
Interdiction, Mr. Gregory Passic. And from Immigration and 
Customs Enforcement [ICE], we have the Deputy Assistant 
Director of the Office of Investigations, Mr. John Torres. We 
look forward to your testimony and insight into this important 
issue.
    [The prepared statement of Hon. Mark E. Souder follows:]

    [GRAPHIC] [TIFF OMITTED] T4890.001
    
    [GRAPHIC] [TIFF OMITTED] T4890.002
    
    Mr. Souder. Before proceeding, I want to ask unanimous 
consent that all Members attending today have 5 legislative 
days to submit written statements and questions for the hearing 
record, and any answers to written questions provided by the 
witnesses also be included in the record. And, without 
objection, it is so ordered.
    I also ask unanimous consent that all exhibits, documents, 
and other materials referred to by Members may be included in 
the hearing record, and that all Members be permitted to revise 
and extend their remarks. Without objection, it is so ordered.
    Our first and only panel is composed of the four gentlemen 
that I mentioned. And, as you know, as an oversight committee 
it is our standard practice to ask all our witnesses to testify 
under oath. So if you will each stand and raise your right 
hands.
    [Witnesses sworn.]
    Mr. Souder. Let the record show that each of the witnesses 
responded in the affirmative.
    Thank you very much for coming today for this important 
hearing as we continue to look for the most effective border 
strategies that we can have, particularly as we see terrorism, 
drug trafficking, and human trafficking all start to merge 
together and will continue to merge even more closely over 
time.
    We will start with you, Admiral Utley.

  STATEMENT OF RALPH UTLEY, RADM, USCG Ret., ACTING DIRECTOR, 
OFFICE OF COUNTERNARCOTICS ENFORCEMENT, DEPARTMENT OF HOMELAND 
                            SECURITY

    Admiral Utley. Good afternoon, Chairman Souder, 
distinguished members of the panel, my name is Ralph Utley and 
I am the Acting Director of the Office of Counternarcotics 
Enforcement for the Department of Homeland Security and Acting 
U.S. Interdiction Coordinator. It is my privilege to appear 
before you to discuss drug trafficking and its impact on our 
borders. And I would ask that my written statement be entered 
into the record.
    The Office of Counternarcotics' goal is to lead a unified 
departmental effort to prevent and deter illegal drugs from 
coming into the United States.
    Today's hearing on threat convergence along the border: How 
does drug trafficking impact our borders, is central to this 
goal. My core mission is to coordinate policy and operations 
within the Department and between the Department and other 
Federal departments and agencies with respect to stopping the 
entry of illegal drugs into the United States.
    Before I discuss the borders, I would like to share with 
you some results of last year's interdiction efforts in the 
transit zone. In fiscal year 2004, the Department of Homeland 
Security in cooperation with the interagency removed over 225 
metric tons of drugs that were headed to the United States. The 
U.S. Coast Guard had an exceptionally banner year for fiscal 
year 2004, seizing over 109 metric tons in the transit zone. 
Through June 1st of this year, the U.S. Coast Guard has seized 
over 81 metric tons of cocaine. Much of this interdiction was 
supported by CBP assets.
    Other DHS agencies also set records in interdiction during 
2004. U.S. Customs and Border Protection seized over 905 metric 
tons of marijuana, 26 metric tons of cocaine, and 1.3 metric 
tons of heroin bound for the United States. U.S. Immigration 
and Customs Enforcement [ICE] was involved in the investigative 
efforts and apprehension of over 712 metric tons of marijuana, 
150 metric tons of cocaine, and 1.3 metric tons of heroin, and 
1 metric ton of methamphetamines that were headed for the 
streets of the United States.
    The majority of these drugs were destined for the southwest 
border where they would have consequently entered California, 
Arizona, New Mexico, and Texas. To combat drug trafficking 
along U.S. borders, my office is committed to working with our 
Mexican and Canadian Government copartners. Only with open 
communication and binational cooperation can this be done. The 
Department is actively engaged with Mexican law enforcement 
officials through the Senior Law Enforcement Plenary and the 
Binational Interdiction Working Group. The Department is also 
working with Canadian law enforcement officials through the 
Integrated Border Enforcement Teams. It is through these venues 
that bilateral ties are strengthened and the United States has 
a better chance of collectively interdicting drugs.
    OCE continues to work with the existing intelligence and 
operations centers along the border to ensure that adequate 
counterdrug resources are applied to the problem. In addition, 
OCE continues to coordinate policy within the Department of 
Homeland Security to streamline departmental and interagency 
operations.
    In addition to streamlining operations, we must make sure 
that information is being disseminated vertically up and down 
within the Department so that policies and intelligence can 
support operational units in the field. We also need to fuse 
and exploit all information that we learn across the country so 
that when a CBP agent in Arizona learns of a new smuggling 
method, that information is fed to our intelligence analysts, 
incorporated where appropriate into our strategy to combat 
smuggling, and disseminated across the Department and 
interagency to others focused on the same problem.
    Our focus must extend beyond the Department itself. We must 
review and make use of information coming from the intelligence 
community, and we must play an active role in providing 
operational feedback to the intelligence community. Sharing 
information across the Federal Government is critical if we are 
to succeed. To that end, I am committed to making sure that our 
law enforcement and intelligence partners across the Federal 
Government have appropriate access to the Department's 
information and analysis to the maximum extent possible under 
law, while at the same time protecting the privacy rights and 
civil liberties of Americans. By the same token, we must sit as 
full partners at the table with full access to information from 
the intelligence community.
    Finally, we must inform and communicate with our State, 
local, tribal, and private sector partners. As information 
comes in, we need to ensure it is disseminated to the right 
people in a way that can be used to strengthen their effort and 
contribute effectively to ours.
    Very shortly, I will be providing to the counternarcotics 
community a national interdiction command and control plan and 
the interdiction planning guidance. These documents will help 
organize U.S. resources that are committed to counter the drug 
threat along our border. My office is also drafting a 
department-wide counterdrug policy that will outline the 
current counterdrug resources of the Department of Homeland 
Security and will address intelligence-driven operations and 
initiatives to ensure that maximum results are achieved from 
all DHS counterdrug effort.
    OCE has taken steps to actively engage in the intelligence 
community; specifically, we have engaged with the National 
Counterterrorism Center, Joint Terrorism Task Force, El Paso 
Intelligence Center, National Drug Intelligence Center, Defense 
Intelligence Agency, and the Central Intelligence Agency's 
Crime and Narcotics Center. Our goal is to serve as a conduit 
between DHS and the counterdrug community as we respond to our 
congressional mandate to track and sever the connection between 
drugs and terror.
    In closing, the ability to stop the flow of drugs into the 
United States is necessary for national security and public 
safety. By aggressively enforcing our existing laws and working 
transparently to better fuse intelligence, we seek to deter 
drug traffickers and terrorist organizations who threaten our 
way of life.
    I would like to thank Mr. Chairman and members of this 
committee for this opportunity to appear, and I look forward to 
answering your questions.
    Mr. Souder. Thank you very much.
    [The prepared statement of Admiral Utley follows:]

    [GRAPHIC] [TIFF OMITTED] T4890.003
    
    [GRAPHIC] [TIFF OMITTED] T4890.004
    
    [GRAPHIC] [TIFF OMITTED] T4890.005
    
    [GRAPHIC] [TIFF OMITTED] T4890.006
    
    [GRAPHIC] [TIFF OMITTED] T4890.007
    
    Mr. Souder. Mr. Placido.

   STATEMENT OF ANTHONY PLACIDO, ASSISTANT ADMINISTRATOR FOR 
             INTELLIGENCE, DRUG ENFORCEMENT AGENCY

    Mr. Placido. Chairman Souder, members of the subcommittee, 
thank you very much for this invitation to testify today. On 
behalf of DEA Administrator Karen P. Tandy, I thank you for 
your continued support of the men and women of the Drug 
Enforcement Administration.
    As the former Regional Director for DEA's Mexico Central 
American Division, Special Agent in Charge of the New York 
Field Division which borders on Canada, and a 25-year veteran 
of the agency, I am acutely aware of the challenges at our 
borders. Securing our borders requires extraordinary 
coordination among and between American law enforcement and 
intelligence organizations as well as robust cooperation with 
our foreign counterparts.
    With that, let me begin with a few words about DEA's 
foreign program and our worldwide drug flow prevention 
strategy. The DEA, in conjunction with other U.S. agencies, has 
launched an innovative multiagency strategy to significantly 
disrupt the flow of drugs and chemicals before they reach our 
borders. The plan is to attack the key vulnerabilities and 
supply, communications, and transportation systems of these 
drug trafficking organizations by executing sustained, 
sequential operations based on predictive intelligence. We have 
already deployed our foreign area support or FAS teams to 
Afghanistan, and hope to go forward with at least one prototype 
operation in Latin America by August 2005. Our goal is to build 
on the successful model we have established in the interagency 
Operation Panama Express.
    While DEA attempts to use its extensive foreign presence 
and operational capabilities to provide defense in depth to 
disrupt the flow of drugs before they reach our borders, we 
also recognize that the southwest border is the primary arrival 
zone for the vast majority of illicit drugs that are smuggled 
into the United States. DEA is committed to working 
cooperatively with the Department of Homeland Security which 
has primary jurisdiction for border security.
    Combining DEA's extensive foreign capabilities with DHS's 
efforts at the border is essential to enhancing the Nation's 
border security. The strategic partnership between DEA and DHS 
is particularly important in our efforts to control the 
southwest border with Mexico.
    During President Fox's administration, DEA participated in 
numerous successful bilateral law enforcement operations with 
Mexico. Notable drug kingpins such as Benjamin Ariano Felix, 
Osiel Cardenas, Armando Valencia, Miguel Cartanterro, Alcid 
Ramon Mogania, and Alpino Contero Moras have been arrested as a 
result of these joint efforts. These operations and others show 
real promise. Unfortunately, they have not been mounted on a 
scale that is commensurate with the magnitude of the problems 
we face from Mexico.
    The single largest impediment to enhancing our progress 
against drug trafficking from Mexico is corruption. DEA has 
highly productive, longstanding relationships with Government 
of Mexico counterparts. Unfortunately, officials of 
unquestionable integrity and remarkable courage must too 
frequently contend with a system that is fraught with 
bureaucratic inefficiency and corruption. This makes it 
extremely difficult and sometimes very dangerous for our 
counterparts to do their jobs. These factors and the geographic 
proximity to the United States will continue to make Mexico an 
attractive staging area for drug smuggling and transnational 
crime.
    The Government of Mexico and DEA have scored a series of 
major blows against drug cartels. Unfortunately, all of the 
major Mexico-based drug trafficking organizations continue to 
operate at some level. Some have become even more dangerous as 
the pressure has ignited turf wars along the southwest border. 
Drug-related violence in Mexico has expanded beyond intergang 
warfare to include slayings of politicians, journalists, prison 
employees, and police. This activity further undermines 
confidence in the Government of Mexico and has the potential to 
spill over onto the U.S. border. Intelligence sharing and 
cooperation are vital to combating transnational crimes, and 
these efforts must begin at home.
    The El Paso Intelligence Center [EPIC], founded in 1974 is 
an interagency organization and it is the oldest and most 
important intelligence-sharing initiative. EPIC is a national 
center that is specifically focused on the southwest border. I 
recently met with Mr. Passic from the Bureau of Customs and 
Border Protection and DEA officials from the southwest border, 
the Caribbean, and Mexico. The unanimous consensus of this 
group was that EPIC is an important tool and that it can and 
must do more to promote enhanced border security.
    EPIC is uniquely positioned to provide consolidated 
interagency intelligence support required to protect our 
borders. Working with our interagency partners at EPIC, I 
believe we can bring a new era of cooperation into reality. The 
result will be significant enhancements in the ability of all 
agencies to use intelligence to inform and drive operations and 
investigations and, most importantly, to protect the Nation 
from the scourge of transnational crime.
    Mr. Chairman, at this point I ask that my full written 
statement be entered into the record, and I will be glad to 
answer your questions.
    Mr. Souder. Thank you very much for your testimony.
    [The prepared statement of Mr. Placido follows:]

    [GRAPHIC] [TIFF OMITTED] T4890.008
    
    [GRAPHIC] [TIFF OMITTED] T4890.009
    
    [GRAPHIC] [TIFF OMITTED] T4890.010
    
    [GRAPHIC] [TIFF OMITTED] T4890.011
    
    [GRAPHIC] [TIFF OMITTED] T4890.012
    
    [GRAPHIC] [TIFF OMITTED] T4890.013
    
    [GRAPHIC] [TIFF OMITTED] T4890.014
    
    [GRAPHIC] [TIFF OMITTED] T4890.015
    
    [GRAPHIC] [TIFF OMITTED] T4890.016
    
    [GRAPHIC] [TIFF OMITTED] T4890.017
    
    [GRAPHIC] [TIFF OMITTED] T4890.018
    
    [GRAPHIC] [TIFF OMITTED] T4890.019
    
    [GRAPHIC] [TIFF OMITTED] T4890.020
    
    Mr. Souder. Mr. Passic.

     STATEMENT OF GREGORY PASSIC, DIRECTOR, OFFICE OF DRUG 
          INTERDICTION, CUSTOMS AND BORDER PROTECTION

    Mr. Passic. Thank you very much, Chairman Souder, and 
members of the subcommittee and staff, for inviting us to your 
hearing today. I hope that we can address the points you have 
raised in your statement. I think they are all important things 
that we are working on, but we need to be able to do in a 
better fashion, portray to you what we are trying to do and how 
we can work together to achieve the results that we are all 
looking for.
    The southwest border is a very significant part of our job. 
It is also a major challenge to national interdiction efforts. 
I have a chart I would like to maybe show you, and I don't mean 
to bring this up to just put numbers in front of you, but 
Customs and Border Protection is very, very busy on the drug 
account. As you can see, last year we actually seized about 
100-plus tons of drugs.
    One of the better things that happened when Customs and 
Border Protection was created, we have one face at the border, 
we have one person who can represent the commissioner's wishes 
with our partners. We can sit down and we can talk about 
strategies and ideas, and it is not as complicated as it used 
to be.
    I would like to point out, though, that most of those 
seizures resulted from what we call cold hits. We would welcome 
an opportunity to have better intelligence to our front line. 
What we like to see is what we refer to as smart intelligence. 
We would like to have intelligence that would direct us to 
seize drugs that come from trafficking groups that are under 
investigation. We would like to provide to ICE and DEA critical 
evidence in their drug cases, the means of sometimes getting 
extraditions of major traffickers. Nothing is more worthless, 
in my humble opinion, than a load of dope that doesn't belong 
to anybody. It does remove drugs from getting to the market, 
but we want to have more impact than that.
    We also would like to--Mr. Placido mentioned EPIC and other 
intelligence programs that DEA has. We see them as a primary 
partner. They are the best repository of drug intelligence in 
this government, and we need to do a better job of connecting 
with them.
    We appreciate DEA's efforts in the past 60 days to include 
us in their programs, to actually ask us what we need on the 
border, to participate with them in making EPIC, the Drug 
Fusion Center, and other vital drug intelligence programs work. 
And you are absolutely right: We don't need more, we need less; 
we need concentrated, we need better, and we need teamwork on 
the drug intelligence account.
    We would also like to see better eyes and ears on the 
border. I mean, it is a tough job standing at that border and 
actually stopping drugs. We do the best we can, but we feel 
that we could do a better job if we had better intelligence on 
the staging areas in Mexico, if we could do more to help our 
ICE and DEA counterparts and the other interdiction members of 
the community to seize drugs before they get into Mexico. 
Mexico is a tremendous black hole for all of us. Once it gets 
into that bottom part of Mexico, it is tough. The next shot we 
have at it is at the border.
    And along those same lines, I think the engagement of our 
Mexican counterparts is absolutely critical. If we have had a 
hole in our defense--and Mr. Placido mentioned that, because of 
the corruption factor down there, it has been hard getting the 
level of counterparts that really we could do joint operations 
with. We see some promise. This week the Mexicans have actually 
started kicking doors in and chasing some of the major 
traffickers out of their safe havens along that northern 
border. And we support that effort. We laud them for trying and 
tackling the tough guys that have been hard to get to in the 
past.
    We also would like to work with DEA and ICE and others to 
somehow get beyond the word ``cooperation.'' It kind of drives 
me crazy, to be honest with you. We should be using the word 
``collaboration.'' We should know what each other's role is, 
and we should complement each other's role and we should 
strengthen and add to that. A mere exchange of ideas is not 
going to take you where you want to go as far as effectiveness 
on that southwest border.
    And we see positive signs of that happening. There is a lot 
of energy in the community right now addressing the issues you 
brought up. And I think that if we can somehow use that energy 
to, in your efforts--and I have to laud you for--I have been a 
drug warrior for 37 years. I started buying dope as a cop, and 
I spent 15 years in the Beltway drug war, and I have seen 
interest go up and down. I know your interest is real in your 
subcommittee, and you are trying to help us. And I think that 
we need to do that together. I think that law enforcement 
counterparts sitting at the table with your help can somehow 
focus that energy that is out there right now. And I haven't 
seen it for 4 or 5 years, but it is back.
    DEA is looking at a strategy that actually enhances our 
ability to get into transportation groups. Their drug flow 
prevention strategy is something that we would like to support. 
ICE is also looking at the money side, which I think is an 
often ignored part of our drug problem, is the cash going back 
to these organizations that continue to cause us problems.
    But I would just like to summarize that we have--our drug 
initiatives are still pretty strong. We would not like to leave 
you with the impression that we have, because of the war on 
terrorism, that we have abandoned this field. We feel that the 
Arizona initiative, that the America Shield, or even our 
container security initiative of checking containers before 
they are shipped here helps us interdict drugs. The better 
technology we get and deploy on that border, the better job we 
can do.
    Thank you once again for inviting me and us. And my written 
testimony will also be entered, and be happy to entertain any 
questions you might have.
    Mr. Souder. Thank you.
    [The prepared statement of Mr. Passic follows:]

    [GRAPHIC] [TIFF OMITTED] T4890.021
    
    [GRAPHIC] [TIFF OMITTED] T4890.022
    
    [GRAPHIC] [TIFF OMITTED] T4890.023
    
    [GRAPHIC] [TIFF OMITTED] T4890.024
    
    [GRAPHIC] [TIFF OMITTED] T4890.025
    
    Mr. Souder. Mr. Torres.

STATEMENT OF JOHN P. TORRES, DEPUTY ASSISTANT DIRECTOR, OFFICE 
     OF INVESTIGATIONS, IMMIGRATION AND CUSTOMS ENFORCEMENT

    Mr. Torres. Good afternoon, Chairman Souder, and members of 
the subcommittee. Thank you for the opportunity to address you 
today to discuss the efforts of U.S. Immigration and Customs 
Enforcement [ICE] in the fight against drug smuggling.
    As the largest investigative arm of the Department of 
Homeland Security, ICE is responsible for identifying and 
eliminating vulnerabilities at our Nation's border. Our agency 
seeks to prevent terrorist acts and criminal activity by 
targeting the people, money, and materials that support 
terrorists and criminal organizations.
    The 2005 National Drug Threat Assessment produced by the 
National Drug Intelligence Center [NDIC] makes it clear that 
the southwest border is the center of gravity for most drugs 
smuggled into the United States. Also, Mexican drug trafficking 
organizations are playing a growing role in both the smuggling 
into and the distribution of drugs within the United States. 
Despite, or possibly as a result of successes in controlling 
methamphetamine precursor chemicals in the United States and 
Canada, production of methamphetamine in Mexico appears to be 
increasing. ICE investigators are focused on attacking the 
organizations that are responsible for the illicit movement of 
people, money, and materials across our Nation's borders. All 
smuggling, no matter what the commodity is involved, represents 
a vulnerability to our Nation's security.
    The core of ICE's contributions to the national drug effort 
is our investigations which focus on attacking transportation 
networks and the illicit proceeds derived from all smuggling. 
Several recent investigative milestones demonstrate ICE's 
successful focus on disrupting and dismantling smuggling 
organizations. In November 2004 and February 2005, Gilberto and 
Miguel Rodriguez Orejuela, founding members of the Cali Cartel, 
were extradited to Miami from Colombia as a result of an ICE-
led investigation that is one of the longest and most 
successful organized crime drug enforcement task force 
investigations ever conducted. The Rodriguez Orejuela brothers 
are the highest-level narcotic traffickers ever to be 
extradited from Colombia to the United States. The criminal 
indictments that resulted in their extradition also included 
criminal forfeiture counts that target $2 billion in proceeds.
    In a preemptive effort, ICE's dedicated resources to 
investigating, disrupting, and dismantling those organizations 
that smuggle drugs into Mexico prior to their entry into the 
United States through OCDETF's Operation Panama Express, agents 
from ICE, DEA, and the FBI are providing tactical intelligence 
to interdictors, principally the U.S. Coast Guard. This 
practice has continued to result in significant seizures of 
cocaine destined to the United States through Mexico. While 
Operation Panama Express is often referred to as a transit zone 
operation, we also see it as an important contributor to our 
southwest border effort. Every ton of bulk cocaine seized from 
a go-fast boat has a force-multiplying effect by eliminating 
the need to interdict that cocaine at the southwest border.
    As this committee is well aware, ICE and one of our legacy 
agencies, the U.S. Customs Service, has been a leader in 
successfully investigating the economic proceeds of crime since 
the Money Laundering Control Act was passed in 1986. Since the 
creation of ICE, our financial investigations have evolved into 
a systemic focus that identifies vulnerabilities that cut 
across the spectrum of criminal activities.
    Operation Wire Cutter is a prime example of how ICE agents 
have been able to apply a systemic approach to money laundering 
and work cooperatively with our foreign law enforcement 
counterparts to attack methods used by criminal enterprises to 
launder their illicit proceeds. Operation Wire Cutter, a 3-year 
OCDETF investigation, resulted in the arrest of 41 individuals 
and the seizure of $7\1/2\ million, 755 kilograms of cocaine, 
6\1/2\ kilograms of heroin, and 205 pounds of marijuana. It 
should also be noted that this marked the first time that a 
money broker was extradited from Colombia to the United States.
    The focus today on our work on the southwest border should 
not be taken to minimize the smuggling threats in other areas. 
On our northern border we have seen a continuing growth in the 
smuggling of Canadian-produced marijuana into our country and, 
in some cases, the smuggling of cocaine from the United States 
into Canada. The northern border drug threat also includes 
ecstasy and methamphetamine precursors such as ephedrine. ICE 
and other DHS agencies have worked in partnership and with our 
Canadian law enforcement partners through Integrative Border 
Enforcement Teams [IBETs] to identify and attack organized 
smuggling groups that operate along the northern border.
    Like the border with Mexico, smuggling organizations 
operating along our northern border are increasingly 
sophisticated and are involved in smuggling drugs, aliens, 
commercial merchandise, and currency in both directions.
    In conclusion, I want to assure the subcommittee that 
investigating, disrupting, and dismantling drug smuggling 
organizations remains at the core of what ICE agents are 
focused on in order to secure our borders in furtherance of our 
Homeland Security mission. By eliminating the infrastructure 
exploited by smugglers, whether they smuggle drugs, people, or 
other contraband, border security is enhanced. ICE is dedicated 
and committed to this mission. We look forward to working with 
this committee to enhance our abilities to accomplish this 
mission.
    I thank you again for inviting ICE to speak with you today, 
and I will be glad to answer any questions you may have at this 
time.
    [The prepared statement of Mr. Torres follows:]

    [GRAPHIC] [TIFF OMITTED] T4890.026
    
    [GRAPHIC] [TIFF OMITTED] T4890.027
    
    [GRAPHIC] [TIFF OMITTED] T4890.028
    
    [GRAPHIC] [TIFF OMITTED] T4890.029
    
    [GRAPHIC] [TIFF OMITTED] T4890.030
    
    [GRAPHIC] [TIFF OMITTED] T4890.031
    
    [GRAPHIC] [TIFF OMITTED] T4890.032
    
    [GRAPHIC] [TIFF OMITTED] T4890.033
    
    [GRAPHIC] [TIFF OMITTED] T4890.034
    
    [GRAPHIC] [TIFF OMITTED] T4890.035
    
    [GRAPHIC] [TIFF OMITTED] T4890.036
    
    [GRAPHIC] [TIFF OMITTED] T4890.037
    
    Mr. Souder. I thank you each for your testimony. I am--we 
don't have our clock here, so I am going to start with some 
questions and I will yield to Mr. Gutknecht, and when Mr. 
Cummings is here, I'll yield to him as well.
    I have lots of different questions, so it's hard to know 
where to start. I want to make it clear to any--to all of you, 
that the agents involved in the field are who we pay tribute 
to. I mean any kind of criticisms we're having on 
organizational structure, how best to effect this, is not 
criticism of individual agents who are doing their best every 
day on the front lines. And I know it's hard to pull a large 
bureaucracy together, and especially multiple large 
bureaucracies; and we have been unsuccessful historically and 
now Congress is saying, ``faster, faster, faster.''
    But Mr. Torres, with all due respect, part of my 
frustration is that in your testimony you say there was an 
agreement between ICE and CBP to enhance the work of both 
organizations, and that prior to these guidelines there was 
little or no coordination between the agencies before the 
creation of DHS, which is certainly true. But what in the world 
are two divisions of an agency doing negotiating an agreement? 
I mean, the fundamental question here is that most Americans 
thought, probably idealistically, that when we merged DHS that 
there would be a joint mission, that there would be top-down 
review of how to be effective. Now we are hearing there is 
another review going of how to make this more effective. Not 
like it is two entities negotiating as to how best to trade 
information, but rather a systemic, integrated firm.
    Now, my concern is not whether CBP or ICE is the better. 
Absolutely, both are needed. And not only do you need a picket 
fence, you need a flexible fence, in effect, that moves in both 
directions beyond the border. We need detention and removal. 
Some people are concerned about merging the two because we are 
going to forget the historic INS function, which is, I don't 
think, going to happen right now in the environment of the 
United States, that suddenly we are going to forget the INS, 
the legacy INS function.
    What we are trying to figure out is how in the world can we 
devise an agency here inside the DHS that then can work with 
DEA. You have the Defense Department looking about standing up 
a NORTHCOM with another intelligence center on the border with 
JITF 6, the legacy JITF 6, whatever they come up with along the 
border, if we have any Guard and Reserve people to train along 
the border, but trying to figure out how to pull this all 
together. But one of the initial steps has to be some kind of a 
more effective organization inside DHS before we even get into 
kind of moving the rest.
    Now, let me start with a couple of questions related to the 
organized smuggling enterprises. It was--and let me start with 
a very particular. I mean to me, drugs have the biggest death 
consequence in the United States, 20,000 minimum, 30,000 a 
year. Terrorism is probably--if you take it over the last few 
years, has been 3,000 to 3,300 total in the United States. But 
there you have the risk of a catastrophic amount of people 
losing their lives.
    And then the third is our illegal immigrants; to the degree 
you have murderers or others come across the United States who 
aren't involved in drugs or terrorism, you have a certain risk 
too. But basically a lot of these are the same people and the 
same organizations. And certainly the vulnerability whether--if 
you can smuggle drugs across, you can smuggle nuclear parts. If 
you can smuggle people across, you can smuggle drugs or nuclear 
parts there. And to some degree, there is a merging of this. 
And we are looking at a number of different pieces of 
legislation to look at this.
    Now, let me ask a series of questions based off of yet what 
seems like a nonborder issue but is directly related to, in my 
opinion, a border.
    In Elkhart County, IN, in my district, the prosecutor has 
taken down two green card operations; in Allentown in my 
district, they have taken one, because we have relatively low 
unemployment and lots of illegals are coming in. We also see a 
small percentage of those, but a percentage of those with 
narcotics and a small percentage of those are in watch groups 
in my district, all of whom come across the border somewhere in 
the United States.
    I also had a wedding reception the other week--and I raised 
this to Director Chertoff--one lady telling me that she had 
four--four people had stolen her Social Security number, and 
she couldn't get a credit card because four other people had 
her Social Security number. Then a doctor sat down at the same 
table, whose entire group had their Social Security number 
stolen and used; that, because basically if people are going to 
apply for jobs, they are going to need a Social Security 
number, and if they have a Social Security number with a 
picture, then the employer can't do anything about it as long 
as there is a Social Security card and a picture.
    Now, what it suggests to me is there are fairly large 
operations going on here that when I go down to the southwest 
border, and no matter which of the agencies I work with, 
clearly we are looking at people as they are coming in. As you 
mentioned, the Coast Guard is interdicting before they get into 
Central America. Once it gets into Mexico we kind of lose it; 
it pops back up in the border. By then the question is, are 
they going to go through with just kind of an illegal immigrant 
violation at a regular border crossing, in which case we will 
detain them and send them back and then they will come through 
again; or if they have a criminal record, we will detain them; 
or they will move in between the different areas. That as you 
look at this pattern, particularly in between the different 
areas--and now correct me if any of you feel this statement is 
incorrect--that those who have other criminal intents or 
criminal records are more likely to move through a nonport of 
entry, because at a port of entry they are more likely to get 
caught, to be screened and therefore detained or sent back.
    So if you have a criminal record, other than illegal 
immigration, the odds are you are going to move either in 
eastern California, somewhere in east or west Arizona, or in so 
many holes in Texas. In which case that, if that is true, do 
any of you disagree with that statement that if you were a 
high-risk person, probably a point of entry isn't where you are 
going to head across? And that we all know and can see with the 
eyes, anybody who goes to the southwest border, that these 
people are not likely to walk up in groups to the desert, with 
up to 100 miles across, without having some kind of vehicle 
designated in advance to pick them up, that somebody is out 
there waiting for them. That, furthermore, we full well know 
they are directing them along the way. That--in multiple ways, 
whether it be in a course of the path, whether it be where 
there is water, whether it is a Blackhawk is coming and you had 
better hide for a while, abandoned loads of dope that we find 
because we got tipped off or heard that there were Border 
Patrol vehicles up ahead. That then, when somebody picks them 
up, who is renting the vans? Who is putting the ads in Central 
America?
    I mean, I've heard testimony at this subcommittee and over 
at Homeland Security where they said it is $8,000 to $12,000 to 
get a 7-day guarantee into the United States or you get your 
money back--if you are from Mexico, a little more if you are 
from Central America--testified from DHS from Mr. Garcia that 
it was substantially higher for Middle Easterners, but around 
$30,000. That that means somebody is advertising, like a travel 
agency down in Central and South America; that somebody is 
arranging the vans; that somebody is providing the Social 
Security numbers; that somebody has probably got a job list 
where they are headed.
    And the question is that probably many of these same groups 
are involved in multiple things. They are for-hire agencies.
    To what degree do you--are you coordinating with the FBI 
through OCDETF, with the DEA through their narcotics 
intelligence efforts, through the ICE, through the Customs and 
Border Patrol? To what degree are you looking at these systems, 
which are probably doing--if 92 percent of the cocaine is 
coming through these holes, what are we doing to catch that?
    What are we doing with the human trafficking organizations? 
In my bet, we're going to find a lot of them are the same 
people financing this. And I'd appreciate some comments on 
that. And do you need additional legislation, more penalties 
for coyotes, more penalties for people who organize? What is 
the approach of each of your agencies in looking at these 
systems? And are you talking to each other about it?
    Are we so stovepiped right at the border, stovepiped in 
land and ICE investigations, stovepiped in DEA, stovepiped in 
the FBI, that we aren't even kind of coordinating a 
systematic--what I just outlined was probably a work force, an 
international, a van rental that is--you know, they aren't 
thinking, oh, this isn't in any jurisdiction, they are working 
as an organized structure in between the borders. You don't 
just randomly walk through 100 miles of desert unless you are 
really stupid. And some people are, but most of them aren't.
    Mr. Torres. Mr. Chairman, I would like to start responding 
on behalf of ICE. I would like to give you one example of how 
we are coordinating our efforts on the southwest border, and 
that is with the Arizona Border Control Initiative along the 
southwest border, mainly between the ports of entry on up 
through the State of Arizona into Phoenix, and our precursor 
operation with ICE, which was the Operation ICE Storm.
    For example, we take a look at working in partnership with 
the Border Patrol, with the CBP inspectors, and in many 
instances with DEA and the FBI, with the level of violence that 
we are seeing associated with human traffickers, human 
smugglers, and drug traffickers.
    Some of the results over the past year and a half--this is 
an ongoing initiative that started a little over a year and a 
half ago. We've interdicted over 7,000 aliens, presented over 
300 defendants for prosecution for human smuggling violations, 
recovered over 250 weapons. We have seen a dramatic drop in 
human aliens/kidnapping-related crime from 82 percent down to 
about 20 percent. And those are based on statistics from the 
Maricopa County Sheriff's Department and the Arizona Police 
Department.
    What we do is we work hand in hand almost in a task force 
environment down there, sharing intelligence and working leads 
together. Whether we get a call somewhere across the country 
that says there are people being held against their will in a 
drop house in Arizona, we will work in concert with the FBI, if 
necessary, with State and locals, to go rescue those people. In 
many instances those, as you said, some of those organizations 
are also moving drugs. And we are working closely with DEA, we 
are working closely with Customs and Border Protection through 
the Border Patrol agents to interdict and to focus on the 
organizations.
    ICE focuses on the investigations itself, and we take a 
look at where there is displacement. When we received 
intelligence that those organizations were moving outward, 
either toward Las Vegas or Los Angeles International Airport, 
we then focused our efforts in Los Angeles. Exactly as you were 
saying, we focused on travel agencies, because those travel 
agencies were bringing people into the United States or 
providing some sort of money laundering operation for those 
organizations. And we also had significant success in 
dismantling those organizations in Los Angeles. I can't speak 
on behalf of everyone at this table, but I would venture to 
guess that most of them here would say that Arizona Border 
Control Initiative has been very successful as an example of 
how we are coordinating on the southwest border.
    Mr. Placido. Chairman Souder, the Drug Enforcement 
Administration takes a very systemic view of collaboration, 
cooperation, at the interagency level. Let me give you just a 
few examples of that.
    Our foreign office in Mexico, which I recently ran, in our 
office spaces are not only DEA personnel, but ICE and FBI 
physically colocated and co-mingled. The El Paso Intelligence 
Center since 1974 has been an interagency center designed to 
bring together people at this level. Our Office of Special 
Intelligence in the Special Operation Division at DEA are 
interagency, and now the new OCDETF Fusion Center, all designed 
to be interagency, and with the express purpose of doing 
exactly what you are talking about: assuring that we collect 
the right kinds of information, we maximize our efforts in 
collection, and then get that information to the agency that 
has primary jurisdiction for handling that matter.
    I believe that what we really have is more of a problem in 
execution than in strategy. We know what needs to be done; I 
think that we just need to do this more fluidly and to really 
recognize that this is an order of magnitude problem; that the 
flow of drugs, chemicals, and other transnational crime coming 
across that border is enormous. And the level of cooperation 
that is required to combat it, given the resource constraints 
that we have, particularly outside the United States, has to be 
really maximized and optimized to get to the place that we all 
want to be.
    Thank you.
    Mr. Passic. Just one short comment. We have the luxury of 
being outside the cat-fight domain of the investigators and the 
intel community, and that is where the rub comes in the Federal 
drug war. And we are lucky in that we can sit down and we can 
talk to ICE and DEA and the interdiction community about just 
doing a better job. They don't have to worry about us competing 
or having that overlapping jurisdictional problem that the rest 
of the guys have to work with. So we do need that information 
that you talked about, though, because when we pick up 
somebody, especially at those inspection points inland, about 
the only thing we can count on is a thumbprint. And we are 
hoping that the OCDETF Drug Fusion Center, combining 32 Federal 
databases, not just drug information, but all criminal data is 
going to be in there to include identification of subjects. We 
want to figure out a way to plug into that. We want to be able 
to have our license plate readers not only on our points of 
entry, but also in those inland inspections, automatically 
query all of those databases so we know who we have and we can 
make an apprehension and a detention.
    Because the bottom line is, on that border we have to 
have--there has to be some threat of arrest and incarceration. 
There has to be some deterrence that has to be built into it. 
The catch-and-release policy doesn't work very well, and we 
recognize that. And we need that intelligence, we need more 
prosecutors and investigators to do that.
    Mr. Souder. Thank you. I will ask some probably written 
detailed followup. And we may have to do something in 
particular on the Arizona Border Initiative.
    I asked Commissioner Bonner from the committee how many 
people extra came through in Texas and California, because, for 
example, I was there during--at the time of the Arizona Border 
Initiative, and know that Texas was more or less stripped of 
resources, as was much of California in the sense of 
helicopters, planes, many agents; that also the numbers that 
were--the number of people detained on the border daily across 
that have been given to us by CBP didn't totally change much, 
it just switched to Arizona.
    That suggests there may have been a counter movement if you 
don't have enough people on it. And I want to pursue that a 
little bit more, because the third thing with that is what 
actually happened to the people who we arrested, and did we in 
fact get any of the systems? But we will followup more with 
some written questions.
    I yield to Mr. Cummings.
    Mr. Cummings. Thank you very much, Mr. Chairman. I am glad 
you are holding this hearing this afternoon. And I apologize to 
our witnesses. Ms. Norton and I were meeting with the Secretary 
of State, Ms. Rice, and we ran a little bit over.
    But again I thank you, Mr. Chairman, for holding this 
important hearing to examine the efforts by the Department of 
Homeland Security and the Drug Enforcement Administration to 
address the narcotics smuggling as one among many serious 
threats to Homeland Security both in northern and southern U.S. 
borders.
    Our outlook on border security has changed substantially 
since the attacks of September 11th, as the independent 
bipartisan National Commission on Terrorist Attacks upon the 
United States noted in its July 2004 report on the September 
11th terrorist attacks. And they said: In the decade before 
September 11, 2001, border security encompassing travel, entry, 
and immigration was not seen as a national security matter. 
Public figures voiced concern about the war on drugs, the right 
level and height of immigration problems along the southwest 
border, immigration crises originating in the Caribbean and 
elsewhere, and the growing criminal traffic in humans.
    The immigration system as a whole was widely viewed as 
increasingly dysfunctional and badly in need of reform. In 
national security circles, however, only smuggling of weapons 
of mass destruction carried weight, not the entry of terrorists 
who might use such weapons or the presence of associated 
foreign-born terrorists.
    That is from their report, the 9/11 Commission.
    Our heightened attention to terrorism and different 
terrorist methods do not change the fact that some 20,000 
Americans die as a result of drug abuse every year, nearly 
seven times the number of lives lost on September 11th. It is 
therefore critical that we not lose our focus on drugs when it 
comes to protecting America's borders, and Congress has taken 
steps to ensure that this does not happen.
    To ensure that the attention to the counternarcotics 
mission would not take a back seat to other priorities within 
the component agencies of the new Department of Homeland 
Security, Congress specifically provided that the Department's 
primary mission would include the responsibility to monitor 
connections between illegal drug trafficking and terrorism, 
coordinate efforts to sever such connections, and otherwise 
contribute to efforts to interdict illegal drug trafficking.
    Congress has since established within DHS the Office of 
Counternarcotics Enforcement to ensure a high profile for the 
counterdrug mission within DHS and to facilitate coordination 
of counterdrug intelligence among DHS component agencies and 
between DHS agencies and outside governmental agencies.
    Unfortunately, the President's fiscal year 2006 budget 
request chooses not to fund DHS Counternarcotics Enforcement 
Office. This is simply unacceptable in light of the threat that 
illegal drugs pose and the fact that DHS is the lead Cabinet-
level agency for providing drug enforcement along our Nation's 
borders.
    According to the National Drug Intelligence Center's 
National Drug Threat Assessment for 2005, the southwest border 
States are primary points of entry for major illicit drug 
threats such as Colombian and Peruvian cocaine, South American 
and Mexican heroin, Mexican methamphetamine, and Mexican and 
Colombian marijuana. The northern border States are primary 
entry points for Canadian marijuana, southeastern heroin, and 
ecstasy.
    Given this reality, it is imperative that DHS component 
agencies cooperate fully with each other and with DEA and other 
sources of operational and intelligence support to interdict 
drugs both at the borders and before they reach our borders and 
shores in the transit zone.
    Our witnesses hopefully will provide information along 
those lines.
    [The prepared statement of Hon. Elijah E. Cummings 
follows:]

[GRAPHIC] [TIFF OMITTED] T4890.038

[GRAPHIC] [TIFF OMITTED] T4890.039

[GRAPHIC] [TIFF OMITTED] T4890.040

[GRAPHIC] [TIFF OMITTED] T4890.041

[GRAPHIC] [TIFF OMITTED] T4890.042

    Mr. Cummings. And to that end, Mr. Chairman, if I still 
have a moment, I just want to go to Mr. Utley and just ask you 
one quick question and then I know my time is probably up.
    I am just wondering what kind of message, Mr. Utley, do you 
think it sends when the President fails to include money in his 
budget for your office, for what you are doing?
    Admiral Utley. Well, the 2006 budget included $1.82 million 
for the office that has been carved out to the chief of staff's 
office. And I do have complete freedom with that. And it has 
not--the working under the chief of staff's--well, under the 
auspices of the chief of staff has not proven to be negative in 
any way.
    Mr. Cummings. I don't know if you know it, but it was the 
legislation of this subcommittee, and in particular Mr. Souder 
and the ranking member, myself, that created your position. And 
we have been very concerned that position has not had the oomph 
that we had intended it to have. As a matter of fact, when your 
predecessor testified before us, I almost vomited to know how 
weak the position was. And I just wanted to know where we are 
today. I mean, you feel pretty good about it? Do you feel like 
you are having some impact? Do people listen to you?
    Admiral Utley. Oh, absolutely. As a matter of fact, I mean, 
I meet with Commissioner Bonner and Mr. Garcia and the 
Commandant of the Coast Guard on a monthly basis, and we 
discuss all of these things. I have absolute access to these 
individuals to talk about coordination and how we can make 
things better, and I have access to the Secretary as well.
    Mr. Cummings. The other week we had some testimony, I guess 
maybe about a month ago, before our subcommittee about the 
southwest border. And they made it sound like you could come 
through--that the southwest border had holes like Swiss cheese. 
And they talked about--what is the name of that group, the 
group of, the--yeah, the Minutemen, the Minutemen. Them. And 
they talked about, they provided some very interesting 
testimony. And they made it sound like people were like coming 
over the border in droves. And, you know, you can't help but 
think as I listen to them, and we kind of hit on it in that 
hearing, what they might be bringing with them and how porous 
that border is with regard to drugs. And I was just wondering, 
do you all see that as a major point of entry? And you all may 
have testified to this already.
    Admiral Utley. Well, generally, the conventional wisdom is 
that cocaine comes through the ports of entry and marijuana 
comes through between the ports of entry. I mean, that is 
certainly not exclusive, but that's generally what it is. And 
if you--I had the opportunity to follow the chairman on his 
trip to the southwest borders. I have laid eyes on that 
southwest border, and I understand how difficult that is to 
maintain the line, as they say, in the Border Patrol.
    Mr. Cummings. Did you think we need more Border Patrol?
    Admiral Utley. I think that the system of people, 
infrastructure and technology is really the answer. And I think 
that you probably talked to Chief Aguilar about that. And you 
can't do one without the other. The answer is not green 
shoulders, shoulder to shoulder across the line, I think it has 
to be a holistic approach, and to include U.S. Attorneys, bed 
space, things like that.
    Mr. Cummings. Do you all think there are enough resources 
down there? I'm talking about the southwest border. This is the 
Congress, we're supposed to be allocating money. I'm just 
curious.
    Admiral Utley. Well, the President's budget asked for more 
Border Patrol agents, so there are more resources going there. 
And also, there is the America Shield Initiative, which has 
support from the administration, that will bring this 
technology to the southwest borders. Once again, it is not just 
people, it's a combination.
    Mr. Cummings. You realize we had legislation not very long 
ago, an amendment to try to bring more members of the Border 
Patrol and it was voted down by the Congress. Do you realize 
that?
    Admiral Utley. Yes, I do.
    Mr. Cummings. Were you disappointed about that?
    Admiral Utley. Well, like you said, it has to be a holistic 
approach. In other words, it has to have a holistic approach 
across the entire border. It's not just people.
    Mr. Cummings. I got that piece. I'm asking you were you 
disappointed about the fact that the Congress voted down more 
members of the Border Patrol that would have been patrolling 
that southwest border that you're talking about? You're our 
guy, you're our guy in this operation. So I'm asking our guy, 
the one whose position we created, were you disappointed? And I 
realize there are other things that have to be done, but right 
now I'm dealing by the way with this piece.
    Admiral Utley. Well, anything that takes away with more on 
the southwest border is, of course, disappointing.
    Mr. Cummings. And so do you need more resources--I got that 
piece, do you--I'm almost finished. Do you need more resources 
with regard to this other piece that you talked about? You said 
there are more pieces than just people, which I do agree. Do 
you have the resources you need for that, for the other pieces?
    Admiral Utley. It has not been fully developed yet. This is 
one of these things almost like the analogy--any great 
procurement, in other words, you come with an idea of what you 
would like to have, set of requirements, but you don't know 
what all the hardware is and what the best way to do it is. And 
we are not far enough along to have that information and 
present to Congress and say, this is what we need precisely. Do 
you see what I'm saying?
    Mr. Cummings. Yes. And so I take it that all of you must be 
a little concerned, particularly after September 11th--or 
greatly concerned about--I'm just talking about the southwest 
border, I'll talk about the other one when I get to another 
round on it, I guess--about the fact that this border is as 
porous as it is. Is there anybody that feels comfortable that 
it's OK?
    Mr. Passic. Greg Passic from Customs and Border Protection.
    Commissioner Barner, I believe, addressed our personnel 
needs at the full committee hearing, but I know that we have 
presented a package which is being looked at now by principals 
in our Department and they're trying to figure out how to fit 
that together. And I would be happy to get back to you about 
how that is progressing and what enhancements we've asked for.
    Mr. Cummings. What about you, Mr. Torres? I was asking, do 
you, I take it, any of you all satisfied with the southwest 
border at all? Do you feel comfortable with it?
    Mr. Torres. Actually, we're looking at the southwest border 
now to develop new ideas and innovative ways of addressing the 
threat, whether it is the human smuggling threat or whether 
it's the drug smuggling threat or whether it's an immigration 
threat, so that we can leverage all resources, not just the ICE 
resources, but resources within the Department and from State 
and locals.
    So if your specific question is, am I comfortable with the 
southwest border? I would like to see more on the southwest 
border, and that's why we're taking a look at different 
opportunities to see how we can address that.
    Mr. Cummings. Do you have a timetable?
    Mr. Torres. Actually, the Department of Homeland Security 
and ICE is participating in a southwest border strategy effort; 
that's ongoing, I don't have a specific timetable for you.
    Mr. Cummings. All right. Thank you, Mr. Chairman.
    Mr. Souder. Thank you. I think the record needs to show 
there is no budget item for your office. What you were 
referring to was the fact that inside the administrative budget 
of the agency, that you're inside the chief of staff and your 
internal budgeting, they intend to spend $1.2 million.
    Admiral Utley. That is correct.
    Mr. Souder. But the budget is something that puts the 
President's stamp of approval, it then gets locked by the 
appropriations process. And in fact, when we went to the 
Homeland Security debate, as we tried to formalize that in the 
budget, the administration opposed that aggressively with 
Chairman Rogers, he said he would continue to negotiate 
through. And in fact, this office continues to be not funded in 
the budget, but funded at the discretion of the chief of staff 
and his internal budgeting, which is different than a Federal 
budget that acknowledges that the office is there.
    Admiral Utley. That's exactly right.
    Mr. Souder. Also, I think it's important to note, because I 
misspoke earlier and you clarified, that while most, other than 
immigration, most illegal activity is concentrated between the 
ports of entry, that is not true for the larger loads going 
through trucks, tunnels and trains, which Mr. Placido, you had 
in your detailed testimony where you talked about the cocaine. 
Is it not true that most cocaine and precursors to 
methamphetamines and others are moving in larger loads, 
probably not on the backs of individuals or between the 
borders, but rather through more major transit things? Not 
through the human port of entry or even in between the borders 
as much; you're seeing more of that in the tunnels, the trains 
and mostly trucks. And Mr. Passic can maybe talk about that, 
too.
    Mr. Placido. Yes. It is a little more complex than that. 
One of the things that we're all challenged with as we look at 
drug seizures, particularly cocaine seizures that are seized in 
transit. And we will see in a typical go-fast operation, the 
seizure will be in metric tons, on a fishing vessel 5 tons, but 
we know that the average seizures along the southwest border 
are 50 to 100 kilos at that time. And so what happens is those 
large loads are moving into Mexico, they're being staged. And 
our adversary is very sophisticated and they're playing the law 
of averages. They take very large loads into Mexico, break them 
down and run them across. And we're fighting a veritable ant 
army, if you will, as they cross and then it is reconsolidated 
again for movement throughout the United States. So it is a 
very sophisticated adversary that we're up against, sir.
    Mr. Souder. Mr. Passic, Mr. Placido, in his testimony, said 
there were like 40 tunnels. And these tunnels are amazing. They 
often go from one company to another company across the border. 
When you take one of those down, can you give an idea of the 
scale of the volume that you're getting as opposed to when you 
take down the individuals or even individuals who split up who 
are bringing the loads across?
    Mr. Passic. It goes back to the issue of intelligence and 
investigations, why we are looking for our buddies here to help 
us out there.
    You need to develop intelligence on both sides of the 
border, both in the staging areas and also where is the dope 
going once it comes through, that's why controlled deliveries 
are so important. I can't really tell you the magnitude or 
percentage of drugs that comes through the tunnels, it is 
significant.
    Mr. Souder. But like when you get a case, it's not a kilo, 
it's tons.
    Mr. Passic. Yes. But you often only get the person that is 
coming through the tunnel at that time. You don't get what went 
through before, but we recognize that.
    We will also agree that with cocaine and heroin shipments, 
mostly from Colombia, we're looking at the ports of entry, at 
vehicles coming through. Border Patrol is mostly marijuana 
seizures.
    Mr. Souder. Mr. Ruppersberger.
    Mr. Ruppersberger. Sure. We sit here on a regular basis and 
hear testimony, and I want to thank you all for what you do. 
But it's very frustrating to look at how we put the drug 
interdiction enforcement as a priority in this country.
    We, right now in Iraq and Afghanistan, have some of our 
best intelligence officers. We have joint task force working 
together, Army, Navy, Marines, whatever, all coming together 
and intel is a very strong component. We have right now in the 
United States dealing with the issue of terrorism, the Joint 
Terrorism Task Force that has the FBI, CIA, NSA, I think 
Customs, Immigration, I believe DIA all working in the area of 
terrorist threats, as we should. But then you look at what's 
happened with respect to drugs; 85 percent, I think, of all 
violent crime in the United States is drug related.
    And what I see in my travels, and I just got back from 
South America, but when I was in Chiang Mai and Thailand, I saw 
there are very few DEA agents left. I see that the budgets are 
getting lower and lower, and that we have not made the war on 
drugs the same priority as we're making the war in Iraq and 
Afghanistan. And I think this is a big mistake because they 
both should be high priorities.
    Now, when I just came back last week from Bogota, Colombia, 
you see where the drugs are coming from. I think the leadership 
there and the president is very courageous in that he is 
telling the narcos and the FARK that we're going after you, we 
have a drug program where they are either spraying or literally 
pulling the coca plants out of the ground, and then getting the 
people in poverty that are picking the plants and having them 
plant something else. And I don't see that priority here.
    I think one of my biggest concerns that I want to express 
here today is about our intelligence capabilities regarding the 
trafficking of drugs. Once they leave Mexico and Central 
America and are on the way to us, the United States, I believe 
there is a hole in our intelligence network that must be 
closed, and I hope that additional cooperation between the 
agencies--Mr. Passic, you mentioned today a couple of times 
about how you would want to receive more intelligence. You 
know, if you took some of the same resources and you put all 
the disciplines that we have, you put the CIA, NSA, DEA, FBI, 
Customs, Immigration, you put those resources, and you put them 
in Mexico as an example and get the intelligence that's 
necessary, we could make a difference. Right now, right now we, 
I believe--and correct me if I am wrong--85 percent of all the 
cocaine and most heroin is coming from Colombia is going 
through Mexico, and you all are out there trying to do the best 
you can, trying to talk about your strike forces and everything 
else, and I need to know what your resources are. You can't sit 
here, I guess, because you represent a certain agency and ask 
for more money, but we're sitting here looking at what you're 
doing and you're not getting the resources.
    Now Mr. Passic, first thing, what type of intelligence 
would you want to see? What do you need to help you do your job 
in a better way?
    Mr. Passic. Since you asked the question----
    Mr. Ruppersberger. And I'd like the answer.
    Mr. Passic. I'd like to try to give you the straight answer 
here.
    Drug intelligence is very fragmented, we're all responsible 
for that, law enforcement, Congress, we all kind of watched it 
go into 32 separate databases over the 25, 30 years I've been 
here. One of the best things that happened to drug intelligence 
after September 11th--and this was a congressional initiative, 
Congress came up with this and gave law enforcement, the OCEDEF 
program, $25 million to startup infusion of drug intelligence, 
to take those 32 separate pots of intel and put them together 
in a super computer. That includes not only the drug 
intelligence, but it includes financial intelligence from 
Treasury, it includes a lot of intelligence that we've been 
collecting at great expense to the taxpayer over the last 30 
years that we've never exploited or used correctly. I think 
that was a step that Congress took that forced us to react to 
it, I think it was a good step. I think the community needs to 
continue to support that because if we can make this work, if 
we can get in there and we can have one-stop shopping at some 
place that has all of that intelligence with one query, not 
having to hit 32 different databases, that's a major step 
forward.
    Mr. Ruppersberger. Let me ask you another issue, too--and 
maybe anybody can answer this. Part of the reason I think 
Mexico traffickers are doing so well in Mexico is because it's 
a safe haven for them. It's because the corruption that 
probably exists in certain arenas allows them to exist or it 
wouldn't be there. What do we need to do to deal with the issue 
of corruption from your opinion, anybody on the panel that has 
the answer. Is it political, is it police, military? I mean, 
it's multifaceted, and if we don't start focusing, 
prioritizing, it's never going to stop. And it seems to me the 
same people that are taking illegals over the border, taking 
the drugs over the border, sure enough are taking al Qaeda 
cells over the border, also.
    Mr. Placido. Yes, sir. In one my former assignments between 
2000 and 2002 I served as DEA's regional director for the 
Mexico Central America Division. And I can tell you that under 
the Fox administration during the last 5 years, we have seen an 
amazing turnaround. We have probably had more success in terms 
of disrupting and dismantling organizations in Mexico in the 
last 5 years than we have in the last 50, but it's really a 
drop in the bucket compared to what needs to happen.
    You mentioned Mexico is a safe haven, and it is. Things 
that we take for granted here in the United States, we talk 
about forming task forces and relying on State and local and 
tribal law enforcement to assist Federal authorities. In 
Mexico, law enforcement frequently is not a source of 
assistance; they are the criminal adversaries that we face, 
they're the hired guns of the narcotic traffickers.
    Mr. Ruppersberger. OK. So how do we deal with this? And 
let's talk solutions.
    Mr. Placido. Yes, sir. One of the things we have done with 
great effect is our vetted unit initiative. We have pulled 
together groups of police officers in Mexico, and the successes 
that we have had are a direct result of this, who are given a 
very rigorous background examination, polygraph examination, 
urinalysis, and when they pass through that process, we end up 
giving them specialized training and the tools to work with. 
And these form the basis of our international cooperation; this 
is the vehicle through which we're able to share very sensitive 
information and advance U.S. interests.
    But the problem is, on an order of magnitude, these are 
very small units, and we can advance on a case-specific base--
--
    Mr. Ruppersberger. Doesn't it have to start at the very 
top, the president? Let's take an example of something that 
works because you want to look at what works.
    I was very impressed last week in Bogota, Colombia and we 
met with the president and the head of narcotics. And it seems 
to me that the United States and Colombia have done an 
excellent job in removing the corruption and getting the right 
people, creating a patriotic atmosphere for the Colombians. And 
that the generals and the people involved in narcotics have 
basically moved out with our help, the United States, a lot of 
the corrupt people, and now they're able to do things they've 
never done before. And I don't see that same type of situation 
in Mexico. Do you agree with that or not?
    Mr. Placido. It's difficult to say. I'll offer a personal 
opinion here, and I have spent extensive time in both 
countries.
    I think the fundamental difference between Colombia and 
Mexico is that the Colombians themselves have viewed the 
narcotics problem as the engine fueling huge domestic problems 
for themselves. They've made an internal decision to change. I 
don't think that as a nation, Mexico is there yet.
    Mr. Ruppersberger. And that means it starts at the top, and 
it is part of our pressure, too.
    One question that I have, Mr. Chairman, and I'll stop. What 
resources do we need to start dealing with the issue in Mexico? 
Is it money, is it our leadership putting the pressure on the 
leadership in Mexico? I mean, bottom line, I think more and 
more with Colombia's eradication, they're not going to ever 
stop it, but they're moving somewhere. Do you agree that 85 
percent of our cocaine comes from Mexico right now?
    Mr. Placido. The official statistic, sir, has just gone 
from 77 percent to 92.
    Mr. Ruppersberger. There you go, it's even more. And how 
about the heroin, at least 90 from the east coast, Mississippi 
River east?
    Mr. Placido. It's a significant amount.
    Mr. Ruppersberger. If you were the President of the United 
States and you knew, based on your background, tell me what you 
need, the resources, to deal with corruption, to deal with this 
problem in Mexico. Because then when it gets to our streets and 
we have our police officers out there working and trying to 
stop it and catch people, you take down one, two more come up.
    Mr. Placido. Well, clearly, as an official of the 
administration, I support the President's budget----
    Mr. Ruppersberger. We're not asking about that, you covered 
yourself there.
    Mr. Placido. I understand. What I can tell you is that 
there are great efficiencies that can be had from using the 
resources that we already have at our disposal to greater 
effect. And I think that we're seeing the beginnings of that 
right now. I am very encouraged by some of the steps that were 
taken immediately prior to this hearing to try and leverage 
increased deficiencies from the resources we do have. I am not 
prepared to sit here and tell you that we wouldn't like more 
resources. The magnitude of the problem that we face from 
Mexico is enormous.
    Mr. Ruppersberger. I'm glad you gave that answer and you 
covered the President, and whatever. Bottom line, the war 
against drugs is hurting more Americans than the war right now 
in Iraq and Afghanistan, and we have not put the resources in, 
the budgetary money isn't there, and we haven't stepped up what 
we need to do. And I would hope that a hearing like this will 
at least come out with some solutions so that we, as Members of 
Congress, can work in a bipartisan way with the administration 
to make sure that they identify this is a serious problem, and 
what we're doing now isn't going to solve it.
    Mr. Cummings. Just 1 second. You just said something that I 
just want to know what you meant by it. You said you were 
pleased with the things that happened just before this hearing. 
I just want you to clear that up, I don't know what that means.
    Mr. Placido. Yes, sir. In the weeks leading up to this 
hearing, and not because of this hearing, DEA has held a series 
of meetings on what we're calling our Worldwide Drug Flow 
Disruption Strategy. We met with ICE, CBP, Coast Guard the 
intelligence community to try to pull together a strategy to 
try and degrade our adversary's capability to get drugs to the 
border. So that's very encouraging.
    About a week prior to the meeting, Mr. Passic and I met, 
and there currently are no CPB officials at EPIC, for example, 
they weren't there before the reorganization, but we're working 
together integrating CBP into EPIC and to bring them into the 
OCEDEF fusion center. So there are some initiatives that are 
underway right now that we're very optimistic are having to 
bear fruit and really help bring greater efficiency than the 
resources we already have, sir.
    Mr. Souder. If I can followup one more on this with a 
question from Mr. Ruppersberger on the fusion center. Mr. 
Passic, given what I just heard from Mr. Placido, I take it 
your office is looking at joining the fusion center, your 
agency, CBP?
    Mr. Passic. Yes, that is correct.
    Mr. Souder. Mr. Torres, has ICE agreed to submit their data 
to the fusion center?
    Mr. Torres. That is actually being reviewed practically at 
the cabinet level, looking at the different legal hurdles that 
we have in submitting all our data that is in our system right 
now. A couple of issues, one has to do with asylum data in our 
immigration basis, and the other with a proprietary commercial 
business administration that is owned actually by the companies 
out there. So we're looking at those right now.
    Mr. Souder. If those issues prove to be stumbling blocks, 
couldn't most of the information be isolated from that? In 
other words, rather than legal issues, block submitting case 
management data as a whole going in, rather than isolate out 
some?
    Mr. Torres. I would have to get back with our technical 
experts on that and give you an answer.
    Mr. Souder. Because it doesn't do us any good to do fusion 
centers if the other agencies don't fuse.
    Mr. McHenry.
    Mr. McHenry. I will defer at this moment.
    Mr. Souder. Thank you. Ms. Norton.
    Ms. Norton. Thank you, Mr. Chairman. I think what you're 
hearing from the committee in part reflects the fact that after 
September 11th, there was some reason to believe that the 
terrorist threat, in and of itself, would raise the priority 
for effective ways to deal with drug trafficking on the one 
hand, on the trafficking side and on the demand side, and I 
think there is real disappointment that this has not happened.
    It's easy enough to recognize that drug traffickers and 
people just crossing the border would take the same routes. I'd 
like to raise it to the next step, because if it's easy enough 
for terrorists to figure out, as Mr. Souder said, why bother to 
come in legally? I mean, isn't it kind of silly to bother to 
come in legally if there are so many entryways, illegal 
entryways that are so easy to manage, even for amateurs. And 
these are people that tend to get to be professionals in what 
they are doing rather quickly, whether it's flying a plane or 
figuring out the best route across the border.
    The next step, of course, is to figure out, if it's so easy 
to cross the border, look at how easy it is to make money 
trafficking in drugs. Boy, they've shut down al Qaeda and 
perhaps done an effective job, as we understand, shutting down 
the money routes, the known money routes.
    A lot of folks, also amateurs, are making a lot of money 
smuggling drugs, I mean, millions upon millions. So I'm 
interested in specific connections between drug smuggling, drug 
trafficking and terrorists. And not only terrorists themselves, 
but again, you really don't have to be one of these rather able 
terrorists, and they have shown themselves to have some 
strategic ability, to figure out that--you might not even have 
to get in the business yourself--there are already plenty of 
folks who smuggle--to establish connections between those 
folks, the same folks, by the way, so that one doesn't have to 
look at nationality--but the same folks might be an even better 
way, since the one thing that turns out to be fairly easy to do 
is to get drugs across the border and to find people willing to 
take risks to do so.
    So my question is, to what extent are terrorists used in 
the drug smuggling business? Have they yet found their way--God 
knows I can't believe they won't, at some point--have they yet 
found their way into the business, either directly, or using 
the many agents they could find who are already in the 
business, and to what extent is this occurring, and to what 
extent do you know anything about whether it's occurring?
    Admiral Utley. Well, part of the mandate that was set up by 
this committee was to track a connection between terrorist and 
counternarcotics, I'll tell you what I'm doing. First of all, 
we have not found a direct connection by terrorist 
organizations using counternarcotics to bring anything in the 
United States. Now, of the CPOC targets, the consolidated 
priority drug trafficking targets, 18 of those have a 
connection, even if it is peripherally and it's outside of your 
borders.
    Now, what have we done to energize this? I've asked ENDIC, 
and they are providing a study right now to determine in depth 
what the association would be.
    I have also energized the National Counterterrorism Center 
to look at this as well, and the JTTF precisely with that. And 
I have set up a division within the organization that I have 
that is precisely looking at tracking, and if a connection is 
found, severing a connection between drugs and terrorist.
    So it's not--we've got an eye on it, I guess, and we've 
engaged the right people in the intelligence community to take 
a look at just exactly what you are asking.
    Ms. Norton. One of the great criticisms of our intelligence 
was that we didn't have human intelligence, we didn't have 
people on the ground, we didn't have people trained in the 
language and so forth. Well, you know I think we do have the 
capability to have human intelligence, people who speak 
Spanish. And it does seem to me pretty clear that unless one is 
engaged in human intelligence, one cannot possibly know if this 
is happening or be able to stop it before it becomes a real 
phenomenon.
    And again, I stress that if the whole point after September 
is to be forehanded, the only question is, when will somebody 
figure out that this is a fairly easy way to do it? So my 
question is, do you believe that human intelligence should be 
used? Is human intelligence being used on the other side of the 
border, whether for straight out drug trafficking or for 
finding these connections?
    Mr. Placido. Yes, ma'am. A direct response to your 
question, and with the support of this committee and the 
Congress, the DEA operates approximately 80 offices in 63 
countries around the world. About 10 percent of our work force 
is overseas, and about a fifth of DEA's 5,000 informants that 
are active at any given time are based outside of the United 
States. So we are actively recruiting human source intelligence 
around the globe.
    And increasingly----
    Ms. Norton. How about in Mexico and the Caribbean, in these 
countries that are the most direct importers, Colombia--the 
most direct importers to the United States? Do we have human 
intelligence helping us to, on the ground, to figure out what 
is happening?
    Mr. Placido. Yes, ma'am. We do, in fact, have human 
intelligence. The largest DEA presence outside the United 
States is in Latin America, specifically in Mexico and 
Colombia. And increasingly, we are working with our 
counterparts in the intelligence community--DEA has made a move 
to rejoin the intelligence community--to make sure when we are 
debriefing sources about drug trafficking, that we're also 
asking additional questions about terrorism. We're not trying 
to expand our mandate, we are the only single mission agency in 
the government dealing with drugs, but by taking 5 minutes 
extra during a debriefing, we can ask additional questions and 
get that information to the agencies that do have primary 
jurisdiction for terrorism.
    What I can tell you is that the interagency assessment of 
the use of drug trafficking to fund terrorism, the assessment 
is that the connection between drugs and terror is, quote, 
infrequent and opportunistic, with the exception of the FARC 
and the AUC in Colombia, and, to a lesser extent, also in Peru. 
However, we're very concerned and we're trying to develop a 
sense of warnings and indicators that would alert us to any 
change as this develops.
    Clearly we are very much dialed in to the possibility of 
the southwest border being used as a route to move either 
people or weapons of mass destruction into the country. It is, 
however, counterintuitive to think that drug traffickers would 
intentionally go into the WMD or terrorist business, as that 
would likely invoke a response that would cut into their 
profits. But we know that people don't always operate in 
logical ways, and there are indicators, certain key 
extraditions, arrests, murders must force certain traffickers 
to operate in ways that are illogical.
    In addition, we frequently see cover loads; there are 
different rates to smuggle heroin and cocaine, and they will 
commingle to try and get a better break on smuggling certain 
commodities in. Substitute anthrax for heroin, and you can 
unintentionally smuggle WMD into the country. It is a point of 
real concern. And I think if one thing has changed since 
September 11th, it's that while we don't want drugs to continue 
to flow across our borders, we don't want any weapons of mass 
destruction or terrorists. We've got a zero tolerance level.
    Ms. Norton. Mr. Chairman----
    Mr. Souder. Ms. Norton, can I followup with----
    Ms. Norton. Yes.
    Mr. Souder. Directly on the Mexico question. In the States 
immediately crossing the U.S. border, DEA had pulled out from 
some because of the danger to agents. Are you back in on most 
of those across the border? What is our current status direct 
along the border, as opposed to Mexico City and more inland?
    Mr. Passic. Every office that we have along the border, 
there are currently three, is back at its normal staffing 
level. Periodically, the threat level has peaked and we've 
moved people out. That has typically been for a couple of weeks 
at a time when there is a specific threat. But more 
importantly, I'd be glad to take you off line, some recent 
developments in Mexico. They are very optimistic as far as 
future cooperation. I just made some promises not to discuss 
them in public at this point.
    Mr. Souder. With that caveat, do you believe there has also 
been progress made in the Cancun area in Yucatan Peninsula, 
which also had great chaos?
    Mr. Placido. That continues to be a major staging area for 
drugs coming into the country. You will recall in, I believe, 
2001 the former Governor of Quintana Roo, the State in which 
Cancun is located, was arrested. He was involved in very high 
level corruption for the Carrillo Fuentes organization 
facilitating the flow of drugs into that area. That part of the 
country still remains a very significant port of entry for 
drugs that are coming from South America and being staged in 
Mexico.
    Ms. Norton. Mr. Chairman, I had no more questions. I do 
want to say that you don't need to be an ordinary smuggler and 
decide to go into WMD business, the weapons of mass destruction 
business. I mean, these smugglers deal through intermediaries 
so that nobody knows who is working for whom. And to the extent 
that somebody gets a cut of somebody's business, the only way--
and gets into their business--they don't have to know it, which 
goes back to my point about the only way you're going to know 
it is it will be people on the ground, I mean, human 
intelligence on the ground who will ferret out those 
connections--I hope I don't sound like some movie that I 
recently saw, because that is not what I had in mind.
    But Mr. Chairman, I must say that I believe that, leave 
aside terrorism and the need for human intelligence, I cannot 
help but believe we would be doing a much better job in 
combating trafficking of drugs, period, if we had more human 
intelligence. But I have no sense of how much, how deeply it is 
used, how much it is used. And I was pleased to hear what you 
said.
    But it just seems to me that, with what we believe human 
intelligence can do, that if it were really being widely used 
in the trafficking business, that we would have a much better 
chance at knocking out large operators than we seem to be able 
to do.
    Thank you, Mr. Chairman.
    Ms. Watson. Mr. Chairman.
    Mr. Souder. Thank you, Ms. Watson.
    Ms. Watson. Thank you very much, Mr. Chairman. I appreciate 
your sensitivity to the issues that you have been bringing up 
in our subcommittee.
    And one element that seems to me completely missing from 
this discussion is the role of the State Department in our 
diplomatic service. And I don't think there is anyone here on 
the panel that represents those areas, but let me just say this 
and get it off my chest.
    If we were truly to shut off this avenue and better secure 
our southern border, we must do more to engage the Mexican 
government and support them in efforts to improve the 
administration of justice in our country. The combination of 
Justice, Homeland Security and the State Department will send a 
resolute and unified message to the drug cartel. It will also 
cover all the different aspects of government necessary to 
combat illicit drugs. But what really comes to mind is supply 
and demand. Nations and States are financing their budget 
through the sale of these illicit drugs. Now let me give you a 
case in point and bring it closer to home.
    I represent an area in southern California. It is very 
simple for terrorists who are people who come over from Mexico 
and fit the profile of what a person from Mexico should look 
like. And there is no question in my mind that they're not 
residing right in Los Angeles today.
    I found a gun shop in my district that has been operational 
for 15 years selling guns to foreign governments, to the 
military, to the police. We've been trying to close it down. 
They're out of compliance. So Mr. Torres, I called ATF and U.S. 
Customs. I also put an amendment in the gang bill to increase 
Border Patrol, to increase agents, because the word back to me 
is we don't have enough people in the field to investigate and 
to move any quicker.
    So this hearing, Mr. Chairman, and the way it was written 
it says to examine cooperation among agencies. Unless we can 
all start working together, we're never going to--and have 
enough staff, personnel out there--we're never going to get a 
handle. Because as I look at the numbers there, and that's, I 
guess, the amount that they were able to collect, think about 
the drugs that come over the border, carried by ponies that 
they can't touch. And I believe somebody sitting on the 40th 
floor of corporate America is in cahoots because this is all 
driven by money.
    Now here is my question to anyone that wants to answer. How 
can we get all of the agencies involved to cooperate? When I 
give a call to ATF, to Customs, I want immediate turnaround 
because I'm talking about something I know and see all the 
time. The way it came to my attention was that there was a 
demonstration by gangs in front of this shop. I wouldn't be 
surprised if narcotics are moving in and out of there. And I 
can't get anyone to really take action. And so they smuggle 
over the border because there is a tremendous demand. I can't 
get the police to investigate, I had the mayor out, I had the 
councilman out and so on, but I can't get these agencies moving 
because it's not a top priority.
    So if we're looking at terrorism and the means to bring it 
about, weapons of mass destruction, we need to look at a better 
way that we cooperate among agencies, and when we give you a 
tip, that you cooperate with us.
    Mr. Torres, can you tell me why it has taken so much time 
for U.S. Customs to get the guy out because he doesn't conform 
to the local ordinances, and they tell me he has to break down 
his weapons in a certain way? And I know the gang members know 
how to put a gun at his head and say give us every weapon you 
can. And the murders that go on in my district go on because 
somebody cut the deal and didn't hold up their end of the 
bargain in terms of drugs. So how can we cooperate, get you to 
cooperate with other agencies?
    Mr. Torres. I would be more than happy to meet with you to 
get the specifics of the case so that we can refer that to our 
office.
    Ms. Watson. Please do. I mean, I've been on the phone since 
March 5th.
    Mr. Torres. And regarding the gangs, I can assure you the 
gang enforcement is a top priority for us, as is narcotics 
trafficking and human smuggling. So if there are violations----
    Ms. Watson. We can't even close the violators down in my 
district, can't even close him down.
    Mr. Torres. We would definitely like to work with you and 
get that information.
    Ms. Watson. I'll see you outside the door.
    Mr. Torres. Very well.
    Mr. Souder. Any further questions?
    Ms. Watson. No.
    Mr. Souder. I wanted to followup on the border strategy 
question, because one of the fundamental things is to try to 
get a comprehensive border strategy. I wanted to ask Mr. Passic 
and Mr. Torres whether the Border and Transportation Security 
Directorate approve of your efforts to develop a border 
strategy, or is it being blocked? Is it moving ahead? I believe 
that Mr. Passic said you thought something was moving, and 
hopefully in a couple of weeks. Are you feeling resistance in 
the Department? What is taking so long?
    Mr. Passic. No. I think when we initially were asked to 
participate in this thing, we thought it was a great 
opportunity. We want to turn those seizures, those numbers into 
a gear that fits into a machine that impacts pain on 
traffickers. And we saw this as a great opportunity to build in 
an engine that included all of us instead of seven or eight 
different engines puttering around as we often do. So we did 
what you did; we went down to the border, we took a look at all 
the operations, we came up with 11 action items that we thought 
we could do a better job to include working with the Mexicans 
on flights landing short of the border. And we put that list of 
things we thought we could contribute on the plate of BTS with 
our colleagues from ICE. And from what I understand one of the 
holdups is, other elements have said geez, we'd like to throw a 
couple of our ideas on that thing, too, to make it even more 
meaningful. So from what I've heard, that's the hangup.
    Admiral Utley can probably jump in there.
    Admiral Utley. Basically this is an administration-driven 
issue. The NSC, in conjunction with ONDCP, chairs an 
international drug control policy coordinating committee, the 
PCC. The administration, at the highest level, as in the 
President, said we've got to get a handle on the southwest 
border. The fact that there is as much narcotics coming through 
here as they are indicates that it is pretty porous, and what 
does it say for our controlling border?
    Mr. Souder. They just discovered this the last month, or 
the last 3 months ago or 10 years ago? With all due respect.
    Admiral Utley. It was passed through the PCC to do this 
perhaps the latter part of last year, latter part of last year. 
And it came to be that the rose is pinned on BTS through CBP, 
because that's who controls most of the southwest border.
    DHS says, well, you know, having a drug control strategy, 
an immigration strategy and a counterterrorism strategy doesn't 
make a whole lot of sense, you probably ought to wrap it all 
together. Through this PCC a sub PCC was stood up with USIC and 
ONDCP as a lead to do the counternarcotics piece. There is no 
obstruction in there; it is a coordinating thing because it's 
larger than DHS. This strategy is coming through the White 
House, may end up with NSPD. There is a good possibility of 
this, but it has to be interagency, it has to be larger than 
BTS and larger than CBP and larger than DHS. That's what is 
taking--the core is being developed within DHS.
    The interagency process is slower than we would all like it 
to be, and no one is holding it up or holding it hostage; it's 
the coordination mechanism that we're pushing, and we're 
optimistic that we will have it sooner rather than later. I 
know you're asking for a date, can't give you one.
    Mr. Souder. How about if I ask you for this; since I'm in 
my 11th year of Congress and have served on this subcommittee 
since the start, when we started getting involved in narcotics, 
when Bill Zeliff was chairman, and 11 years ago raised to a 
previous administration in their first term about putting 
together a southwest border strategy. Then General McCaffrey, 
as ONDCP director, talked about when the speaker headed this 
subcommittee and he talked about a Southwest border strategy. 
How about we start with this; when is DHS going to have a date 
for its southwest border strategy, and DEA going to have a date 
for its southwest border strategy, and the DOD for its--and 
then once you each get one, then we can maybe get them 
together.
    But if we never start with anybody getting one done, then 
we don't have a way to integrate them. And where in the world 
is ONDCP, since we have been asking them for 11 years for a 
coordinated--now we have a southwest border HIDTA, it's not 
like we don't have any strategy. What we don't have is an 
integrated strategy.
    But it seems to me that the new player at this, because you 
have merged multiple agencies, is DHS. So that if you get a 
date certain for a DHS southwest border strategy, then we can 
put it together with the others, but if everybody is going to 
wait until the next one gets done, this is what we've been 
doing for over a decade since I've been here.
    Admiral Utley. What you have outlined is exactly what's 
going on. I probably didn't explain it as well as I should 
have. The other agencies are putting together their 
counternarcotics piece of this as well, and it will be melded 
together. You're right, it doesn't have to be in series, it can 
be in parallel, and that's what we're trying to do.
    Mr. Souder. OK. Let me ask you about the Department of 
Defense. They're proposing the possibility of changing JTF 
North to A JATF, a joint agency operation. Do you feel DOD 
should be the lead agency to provide command and control 
support to counterdrug along the border?
    First Mr. Utley, then Mr. Placido, Mr. Passic. Mr. Torres, 
if you would have a comment on that, too.
    Admiral Utley. I don't think it should be DOD-led. It 
probably should be, I would say, DHS lead only because--I mean, 
a huge player is going to be DEA. But what DOD brings to the 
table is their pipes--and I'm talking about the things for 
communication and for intelligence--and huge infrastructure in 
knowing how to manage big things. And it's not--we would 
certainly welcome help in this effort with DOD, but it should 
not be DOD-led.
    Mr. Souder. Mr. Placido, how does the DEA feel about it?
    Mr. Placido. I would concur with Admiral Utley----
    Mr. Souder. That it should be DHS-led or that it should not 
be?
    Mr. Placido. It should not be DOD-led. I reserve judgment 
as to who should lead it. I don't think that necessarily should 
be DEA. I think drugs are a subset of the southwest border, as 
opposed to being the whole thing.
    What I will say is that, while we've had very good success 
with the Joint Interagency Task Force South, which is in Key 
West south, and west in Honolulu, there are some fundamental 
differences about what's being proposed along the southwest 
border, not the least of which is that Mexico has--they're very 
prickly about sovereignty concerns. And what JATF South and 
JATF West can do may not be possible over the territory of 
Mexico. Also, on the domestic side, as JATF North, if it were 
stood up, would be in the United States, you would have a whole 
series of issues with posse comitatus.
    So I think they could be a very important partner in 
supporting this thing, but they should not lead it.
    Mr. Souder. Mr. Passic, do you agree?
    Mr. Passic. Yeah, it's a law enforcement mission, not a 
defense mission. There are elements of defense in there, and we 
want to partner up with them, we don't want to discourage them 
from integrating with us. But I'd just like to mention 
something about the strategy.
    When we looked at our components, that didn't stop us from 
moving forward to implement them. We've already started down 
the road doing that because we want to make sure that we're 
doing the best we can with our organization right now as the 
paperwork gets processed at higher levels.
    But we would like to make things work that are there 
better, and it should be a law enforcement function mission 
led.
    Mr. Souder. Because one of the challenges, we will all be 
awaiting to see whether, in fact, some of the rivalries between 
the agencies and among the agencies can be kind of put to bed, 
because you not only have yours, but you have the HIDTA, the 
southwest border HIDTA, which presumably would be involved in 
this. ATF--Ms. Watson was just talking about ATF is going to 
get involved in certain of these violations, clearly ICE inland 
in the investigations, air and Marine, wherever they are 
located, are both all the way from Colombia up into the United 
States. But I'll tell you, there is a level of frustration in 
Congress that's building, that if it doesn't get organized 
between the other agencies, DOD is just going to take it over. 
They're bigger, they have more money, they have lots of 
resources, you use a lot of their intelligence already.
    We're seeing this in the security of the Capitol building, 
that the question was, everything you just raised on the border 
you would think would be doubled here in Washington, DC, yet 
clearly since DHS doesn't have a clear internal policy as to 
how we're supposed to be protected in this Capitol building, 
and Secret Service is involved in this. And DOD, at the end of 
the day it was an F-16 that came up over the Capitol building 
that took command at the end of the day, that the posse 
comitatus question can be addressed through Guard, it can be 
addressed through how the risk is defined.
    And I have been one, while trying to make sure the Defense 
Department stays involved in the narcotics issue, for example, 
in Afghanistan, where it's totally interrelated, to have some 
concerns about the southwest border. And I believe that all you 
agencies, if you get organized, should, in fact, be that, given 
especially the problems with Mexico and their concerns about 
the U.S. military, not that they would have any historic 
concerns about the U.S. military in their territory, that it 
would seem to be a law enforcement function.
    But as you can tell each year, the votes for putting more 
military on the border because of a frustration about the lack 
of the law enforcement agencies to address it, the 
effectiveness of the other JATFs, and who has the most 
intelligence information and equipment, watching how we battled 
through the 9/11 Commission report, and the strength of the DIA 
and the intelligence in the military with that means that while 
all this nice kind of intramural jockeying between the 
different agencies and who's going to have control of what 
along the border will get lost if DOD gets at the table because 
you all just may get squished.
    So speed is important here. I understand it's frustrating, 
I understand that, but it's not like we haven't been waiting 
for some time.
    Do you have any questions, Ms. Watson, before we----
    Ms. Watson. I have tremendous frustrations because, again, 
representing a State from a State that's right on the edge of 
the ocean, with all kinds of ports, we don't have the 
resources, and they haven't come through the channel yet to 
give us the kind of security that we need. And the reason why I 
amended the bill on gangs where there's going to be a big 
effort across the country to go after these gangs here in our 
own land, I think that there is a tremendous threat on the 
border.
    Now, these self-professed volunteer border guards, the 
vigilantes, are not the answer. And I really would like to see 
military--I mean, during this time when we were trying to build 
a network, we need our military with us. And I think military 
and additional border guards, and maybe for just a period of 
time, could do a lot to seal off that border, both from the 
southern end of my State and the United States, and from the 
ocean as well. And so this is a comment.
    My frustration is that I don't see the working together of 
all these agencies. I see it's the same as it was prior to 
September 11th. People hold onto their turf, and in holding 
onto their turf they allow for gaps in the chain. And I don't 
feel any safer today, my people don't feel any safer today than 
they did before we had the establishment of the Department of 
Homeland Security. So unless we can do something dramatic where 
the country can see that we really are serious about protecting 
our borders, I think we drift, and we offer an opportunity for 
the terrorists to really get a foothold.
    And as I said before, I have no doubt that they're already 
here. We've never found out the origin of anthrax, the mailing 
of anthrax here. And while we are, you know, throwing money 
into a deep dark hole, which shall remain anonymous, we're 
suffering here at home.
    And so I would hope that the various departments and 
agencies could, when together, come up with a proposal that 
says we're cooperating, we're using the intelligence that was 
asked for by my colleague, and we're using every means we can, 
and we're using DOD not to lead it, but to lend to your 
efforts. We have to be serious about protecting our borders, 
and we just need to do something immediately and dramatic to do 
that. That's a comment.
    Thank you very much, Mr. Chairman. And again, I want to 
thank you for holding these hearings.
    Mr. Souder. Thanks. And one of the great things about our 
study hearings is we have had bipartisan support and aggressive 
bipartisan support by people like Councilman Watson, who have 
been active at the State level for some time. Elijah Cummings 
in Maryland was a State legislator before he came here. Mr. 
Ruppersberger was a prosecutor. And it's really great. And for 
those of you who have worked in the drug area and all of a 
sudden see bipartisan consensus again, it seems like we kind of 
come and go on our focus on the drug war, and yet, because it 
could be gangs for a while here, missing children over here or 
Iraq over here, but the fact is it is a cause--every community 
in the United States, 70, 85 percent of all crime, including 
child support, is drug and alcohol related.
    And it is something that everyday new people are exposed, 
we just have to stay at it. And this new focus on the southwest 
border is exploding. We are about to vote on CAFTA, which, to 
many Americans sounds an awful lot like NAFTA, which to many 
Americans they weren't really thrilled about. The 
administration is very concerned about that vote, so it has 
also heightened the border question. Clearly it's been in the 
news a lot and the border question, and this is exploding. I 
don't disagree that the President himself is extremely focused 
on this for the first time in some time.
    And now we need to move aggressively in trying to 
coordinate the narcotics efforts on the border with the human 
trafficking efforts on the border and the terrorism, because 
what we all know is we shut down other financial opportunities, 
they have to come up with their money in some different ways. 
And the more skilled organizations are going to be the ones 
that are going to survive. And they're going to wind up, if not 
directly merging, at least have different divisions that are 
successful in ways that move around it. And we have to get more 
sophisticated as well.
    Many Members are on the floor today concerned about what 
the administration is doing in meth, and I want to insert in 
the hearing record here the Mexican connection to the 
methamphetamine problem in the United States from the Oregonian 
newspapers by Steve Soul. He has raised repeatedly, the Mexican 
government is now acknowledging that there is roughly now 150 
tons of meth precursors, the pseudoephedrine coming across the 
Mexican border, of which the testimony today suggests we're 
getting maybe 20 million tons of that 150 million. The DEA and 
Department of Homeland Security took down a huge bust in 
Detroit that seems to have dented it coming through the north, 
but now we're having it explode through the south, coming from 
India and China and major manufacturing.
    So when people talk about the meth problem, it's still 
heavily a border problem because as the mom-and-pop labs are 
starting to decline in the United States, there never were more 
than 30 percent, we're seeing it substituted with the super lab 
stuff, and once again we're right back to the border again. So 
we clearly have to look as it as far as meth as well.
    I had an additional question, it was directly related 
because one of the things a number of us are working on in a 
number of different committees right now is how to deal with 
the smuggling operations. And Congressman Issa last week, when 
Secretary Chertoff was testifying, said that the U.S. Attorney 
in his area was not taking up some of the cases of the coyotes, 
who are the smuggling operations. And maybe Mr. Torres, you 
could directly answer this.
    Do you see that in other jurisdictions as well? And is it 
because the enforcement penalties aren't worth the effort for 
the prosecution? Is it that there aren't that many cases? What 
are you seeing in this kind of human smuggling, human 
trafficking lack of going after some of these organizations? 
What is the biggest need and what is the biggest way that we 
can help?
    Mr. Torres. One of the concerns that we've seen over the 
years has been addressed in the form of a trafficking act that 
was passed several years back, so it raised the penalties for 
human trafficking. That did not correlate to human smuggling, 
only to those that were being smuggled in the United States 
through force, coerce or deceit, and then being held against 
their will in the form of the title 181590 statutes for 
trafficking.
    When looking at smuggling, there is an opportunity to go 
for an upward departure for enhanced penalties, only as that 
relates to the potential serious injury or death of the people 
being smuggled into the United States. And as you are aware, 
what happens with that is you have to wait for someone pretty 
much to be seriously injured or to be killed in the process of 
being smuggled before you can actually use those enhancements, 
as opposed to those penalties being higher than the standard 5-
year felony, of which may result in a 1 or 2-year Federal 
sentence, depending on the crime.
    If you're looking at the standard drivers over-the-road 
smuggling on the southwest border, that happens quite 
frequently, especially if you're looking to focus on smuggling 
through the ports of entry or through the airports, then 
they're forced to smuggle people over the road. And ultimately 
what happens is you end up arresting a lower level person who 
was a driver, who was driving a rented van or a lesser quality 
type vehicle, and so you're really not working the 
organization. That becomes a lower priority case for the U.S. 
Attorney's Office to prosecute because it gets back to, well, 
if you are going to prosecute a low-level coyote case, what 
about the drug smuggling cases and what about the other Federal 
crimes that are out there, bank robbery, etc?
    So that is a particular issue in some areas, depending on 
whether or not the area of the country that you are looking at 
and whether the resources are there in the U.S. Attorney's 
Offices, that is an issue that we see.
    Mr. Souder. We appreciate your help as we move to 
legislation that a number of us are working with and may, in 
fact, become an administration position rapidly. And we want to 
make sure we do this right. But if you can--it's been very 
helpful the way you define how trafficking law is currently 
applied, and what some of the difficulties that are. But if you 
could also ask someone in your office and figure out who the 
best people are to help us with the different legislation on 
what the penalties should be on the human trafficking relating 
to smuggling, what size groups, what you're seeing around the 
United States, where it's being done and not done and what the 
tradeoffs are that they're making, whether, in fact, some of 
this may be related to we don't have enough space to put people 
if we convict them, it may relate to not enough U.S. Marshals, 
U.S. Attorneys.
    In other words, you have to have a support system if you're 
going to pass a law off, and we in Congress don't do that, we 
pass the law but not the support system, and then force the 
decision at the U.S. Attorney's Office.
    Another relationship to that would be, do we have penalties 
in human trafficking, i.e., smuggling in this case of large 
groups, for the people who lease the vans, who provide the 
jobs, who provide--the travel agencies that are providing the--
seeking the people in the community illegally. In other words, 
rather than necessarily focus on picking on the poor individual 
worker, can we have tougher penalties for the people that are 
bringing them in in droves? And then actually, in my opinion, 
work out a responsible immigration work permit policy. But what 
good does it do to have a work permit policy if you don't have 
control of the border, if people can make their green cards, if 
people can get around this system, it won't do us any good to 
change the immigration policy, because there is no motive to go 
into a work permit if, in fact, you can get an illegal green 
card and there is no penalty for it, or a minimal penalty, or 
that we're so backed up nobody will take the case.
    The other question I asked you, before the hearing started, 
I want to put on the record that we would also like to work 
with is the question that Congressman Reyes raised, which is 
for non-Mexican illegals, when a Mexican comes across the 
border, if they don't have criminal activity other than 
violating immigration law, they're deported back to Mexico.
    But if they are not from Mexico, the question is, what 
happens to them? Are they out on their own recognizance? Do 
they get detained, which is a matter of how many places detain? 
And then do they make bond as you mentioned to me? And what is 
the extent of this problem? At San Ysidro, when we got the 
statistics there for the earlier part of this year--and while 
we were there, they picked up Brazilians. What happens to the 
Brazilians? You can't put them back to Mexico. That's not where 
they're from. Eventually, we send them back. So do we release 
them? We may have held them for a couple hours. And then, if we 
release them, do we have statistics of how many actually come 
nice and orderly to their deportation hearing? What about the 
130 that came in from countries of interest, i.e., countries on 
the terrorist list, who weren't on a watchlist so we released 
them on their own recognizance? We didn't really have any 
grounds, but clearly, there is a flaw in this system in the 
sense of counting on them to self report, especially if while 
they may not have been in our watchlist system, they may in 
fact be an embedded person who is coming in. They may just be 
somebody wanting a job, but they may in fact be an embedded 
person. And we are so focused on Mexico that many of us have 
totally forgotten that there is about 10 percent of the people 
coming across the border who we can't immediately deport back 
to Mexico. And what are we going to do with that? And that is 
one of the things we are looking at in our legislation, too.
    But thank you very much for being with us today and sharing 
any additional information we want you to give to us. We may 
have a few more written questions. It has been very helpful as 
we continue to move for aggressive strategies, and hopefully 
you will in your agencies even outstrip the enthusiasm of 
Congress in trying to address the border enforcement. With 
that, the subcommittee stands adjourned.
    [Whereupon, at 4:02 p.m., the subcommittee was adjourned.]
    [Additional information submitted for the hearing record 
follows:]

[GRAPHIC] [TIFF OMITTED] T4890.043

[GRAPHIC] [TIFF OMITTED] T4890.044

[GRAPHIC] [TIFF OMITTED] T4890.045

[GRAPHIC] [TIFF OMITTED] T4890.046

[GRAPHIC] [TIFF OMITTED] T4890.047

[GRAPHIC] [TIFF OMITTED] T4890.048

[GRAPHIC] [TIFF OMITTED] T4890.049

[GRAPHIC] [TIFF OMITTED] T4890.050

[GRAPHIC] [TIFF OMITTED] T4890.051

[GRAPHIC] [TIFF OMITTED] T4890.052

[GRAPHIC] [TIFF OMITTED] T4890.053

[GRAPHIC] [TIFF OMITTED] T4890.054

[GRAPHIC] [TIFF OMITTED] T4890.055

                                 <all>

</pre></body></html>
